<html>
<title> - EXAMINING THE CFTC'S PROPOSED RULE: REGULATION AUTOMATED TRADING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






    EXAMINING THE CFTC'S PROPOSED RULE: REGULATION AUTOMATED TRADING

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2016

                               __________

                           Serial No. 114-56



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-912 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4

                               Witnesses

Wood, Gregory John, Chairman, Market Access Committee, Futures 
  Industry Association; Director, Electronic and Algorithmic 
  Execution, Listed Derivatives, Deutsche Bank Securities Inc., 
  Washington, D.C................................................     4
    Prepared statement...........................................     6
Gorelick, J.D., Richard, Chief Executive Officer, RGM Advisors, 
  LLC, Austin, TX................................................    11
    Prepared statement...........................................    13
Vrabel, J.D., Andrew, Executive Director, Global Head of 
  Investigations, Market Regulation Department, CME Group, Inc., 
  Chicago, IL....................................................    20
    Prepared statement...........................................    22
Ryan, Michael G., Executive Vice President and General Counsel, 
  Trading Technologies International, Inc., Chicago, IL..........    25
    Prepared statement...........................................    26

                           Submitted Material

Bergles, Susan, Assistant General Counsel, American Gas 
  Association, submitted statement...............................    65
 
    EXAMINING THE CFTC'S PROPOSED RULE: REGULATION AUTOMATED TRADING

                              ----------                              


                        WEDNESDAY, JULY 13, 2016

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Neugebauer, 
Goodlatte, Lucas, King, Thompson, Gibbs, Austin Scott of 
Georgia, Crawford, DesJarlais, Benishek, Denham, LaMalfa, 
Davis, Allen, Moolenaar, Newhouse, Kelly, Peterson, David Scott 
of Georgia, Walz, Fudge, McGovern, DelBene, Vela, Lujan 
Grisham, Kuster, Nolan, Bustos, Kirkpatrick, Aguilar, Plaskett, 
Adams, and Graham.
    Staff present: Caleb Crosswhite, Darryl Blakey, Haley 
Graves, Kevin Webb, Paul Balzano, Scott C. Graves, Stephanie 
Addison, Liz Friedlander, Matthew MacKenzie, Nicole Scott, and 
Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. This hearing of the Committee 
on Agriculture entitled, Examining the CFTC's Proposed Rule: 
Regulation Automated Trading, will come to order.
    I have asked Rick Crawford to open us with a quick prayer. 
Rick.
    Mr. Crawford. Thank you, Mr. Chairman.
    Heavenly Father, we bow humbly before you today, thankful 
for every blessing of life. Father, thank that we live in this 
nation that you have provided for us. Father, just ask that 
everything we say and do here today be pleasing in your sight. 
Ask it in Jesus' name. Amen.
    The Chairman. Thank you.
    Good morning, and welcome again to the hearing on 
Regulation Automated Trading. Before we get started, I want to 
thank both Chairman and Ranking Member Scotts. I am not sure 
how to properly phrase that, David, but you and Austin, and all 
the Members of the CEEC Subcommittee for their work over the 
past few months examining Title VII, and working through the 
ongoing challenges in our derivatives markets. Implementing 
Title VII has been a monumental task for regulators. The staff 
and Commissioners of the CFTC deserve credit for their work. 
Much has been improved over the past 2 years, but clearly, 
there remains a significant amount of work to be done, 
especially in harmonizing rules across borders and fixing 
outstanding issues like the swap dealer de minimis problem.
    Over the past 3 decades, our financial markets have been 
quietly revolutionized by computers. Sometimes called the 
``electronification'' of markets, computer networks have slowly 
replaced the traditional trading pits. Electronic markets allow 
computers to seamlessly input orders, giving rise to trading 
directed and conducted entirely by computer algorithms.
    Electronic markets and algorithms offer easier access, 
reduced transaction costs, and support sophisticated tools that 
even the smallest market participants can use. Today, 
algorithmic trading is essential to our futures markets. 
However, the transition to computers has not been without its 
challenges. Computer algorithms sometimes interact in 
unintended ways and markets have suffered disruptions that 
remain difficult to explain.
    In response to this challenging market structure, CFTC 
staff began work several years ago to address the rise of 
automated trading across its markets. Since 2012, CFTC staff 
has held roundtables, participated in advisory committee 
hearings, put forward a concept release, and no doubt held 
countless other smaller meetings. Regulation Automated Trading 
represents the culmination of all this work hard work.
    Reg AT is summarized as a comprehensive approach to 
reducing risk and increasing transparency in automated trading. 
While I am certainly supportive of reducing risks and 
increasing transparency, the approach proposed by the 
Commission falls short of those goals.
    Reg AT's vague boundaries and prescriptive requirements 
conspire to create a rulemaking that is overly complicated, yet 
still incomplete. However, the rule does not have to be this 
complicated. The most confusing parts of Reg AT; the source 
code rules, the registration regime, the reporting 
requirements, and the inflexible risk controls, are unnecessary 
to achieve the Commission's stated goals. Market participants 
already have incentives to police bad algorithms, prevent 
disruptions, and plan for recovery. In many cases, there are 
already ongoing processes across the industry to impose and 
refine risk controls.
    A more modest proposal by the Commission might start by 
leveraging these inherent incentives and requiring universal 
adoption of a flexible framework for best practices.
    While I believe the instincts and intentions of the rule 
are good, its broad scope and sweeping requirements lead me to 
conclude that it cannot be implemented in its current form. I 
am heartened that Chairman Massad is open to finalizing the 
rule in phases, taking more time to get it right. I look 
forward to seeing the Commission's next proposal.
    I have additional thoughts in my written statement, but for 
now, let me close by thanking today's witnesses, each of whom 
have traveled from out-of-town to be here today. We appreciate 
your taking the time to prepare the testimony, and your 
willingness to share your expertise with us, and I want to 
thank you.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Good morning, and welcome to the Committee's hearing on Regulation 
Automated Trading.
    Over the past 3 decades, our financial markets have been quietly 
revolutionized by computers. Sometimes called the ``electronification'' 
of markets, computer networks have slowly replaced the traditional 
trading pits. Electronic markets allow computers to seamlessly input 
orders, giving rise to trading directed and conducted entirely by 
computer algorithms.
    Electronic markets and algorithms offer easier access, reduced 
transaction costs, and support sophisticated tools that even the 
smallest market participants use. Today, algorithmic trading is 
essential to our futures markets. However, the transition to computers 
has not been without its challenges. Computer algorithms sometimes 
interact in unintended ways and markets have suffered disruptions that 
remain difficult to explain.
    In response to this changing market structure, CFTC staff began 
work several years ago to address the rise of automated trading across 
its markets. Since 2012, CFTC staff has held roundtables, participated 
in advisory committee hearings, put forward a concept release, and no 
doubt held countless other smaller meetings. Regulation Automated 
Trading represents the culmination of all this work hard work.
    Reg AT is summarized as ``a comprehensive approach to reducing risk 
and increasing transparency in automated trading.'' While I am 
certainly supportive of reducing risks and increasing transparency, the 
approach proposed by the Commission falls short of those goals.
    Requiring firms to provide the CFTC and the Department of Justice 
with on-demand access to sensitive intellectual property is fraught 
with danger. There is a legitimate fear among market participants that 
allowing more people, even regulators, to view and store their 
intellectual property increases their cybersecurity risks.
    While the rule is unclear about the CFTC's intentions, at least one 
interest group interpreted the rules to suggest that the CFTC will use 
its newly self-granted authority to ``involve itself in the workings of 
[automated trading systems] to anticipate problems . . .'' Such an 
interpretation of the rule would require CFTC staff to oversee hundreds 
of algorithmic trading companies, each running dozens of interdependent 
algorithms, each written with tens of thousands of lines of code. It 
isn't a stretch to say that using source code to ``anticipate 
problems'' in the marketplace would require CFTC analysts to interpret 
hundreds of millions of lines of code.
    The CFTC cannot perform even a fraction of that work in any 
meaningful way. Yet, absent such a proactive effort to monitor 
algorithms, it is unclear why else the Commission would require source 
code be produced without a subpoena.
    Reg AT creates a definition, the AT Person, to identify the 
entities covered by the rule which must comply with all of the 
registration, reporting, testing, compliance, control, and source code 
repository requirements. Included in that definition are any entities 
already registered by the CFTC and ``engaged in algorithmic trading,'' 
as well as those registered as floor traders.
    Twenty-five years ago, this Committee sought to prevent individuals 
with felonies from trading in the pits by requiring the individuals 
trading for their own account in futures pits to register as floor 
traders, be fingerprinted, and undergo background checks.
    Under Reg AT, this concept is being re-purposed to try and expand 
the categories of registered market participants, despite no 
Congressional change to the current registration requirements.
    Beyond the obvious legal question, there is a practical problem to 
using the floor trader definition in this way: the new definition of 
floor trader could wind up unintentionally capturing thousands of end-
users as AT Persons.
    Reg AT's vague boundaries and prescriptive requirements conspire to 
create a rulemaking that is overly complicated, yet still incomplete.
    However, the rule does not have to be this complicated. The most 
confusing parts of Reg AT--the source code rules, the registration 
regime, the reporting requirements, and the inflexible risk controls--
are unnecessary to achieve the Commission's stated goals. Market 
participants already have incentives to police bad algorithms, prevent 
disruptions, and plan for recovery. In many cases, there are already 
ongoing processes across the industry to impose and refine risk 
controls. A more modest proposal by the Commission might start by 
leveraging these inherent incentives and requiring universal adoption 
of a flexible framework for best practices.
    While I believe the instincts and intentions of the rule are good, 
its broad scope and sweeping requirements lead me to conclude that it 
cannot be implemented in its current form. I am heartened that Chairman 
Massad is open to finalizing the rule in phases and taking more time to 
get it right. I look forward to seeing the Commission's next proposal.
    I'll close by thanking today's witnesses, each of whom traveled 
from out of town to be here today. We appreciate you for taking the 
time to prepare testimony and your willingness to share your expertise 
with us. Thank you.
    With that, I'll turn to the Ranking Member for his remarks.

    The Chairman. With that, I will turn to the Ranking Member 
for his remarks. Collin.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and I thank the 
witnesses for being here.
    A little more than 6 years ago, broad-based stock indexes 
collapsed and then rebounded over a course of about \1/2\ an 
hour. The Dow dropped by 998 points in a few minutes, and this 
was the largest infra-day point decline in its history.
    Subsequent research by the CFTC and the SEC determined 
three factors combined to cause this flash crash: algorithmic 
trading activity, obscure order submission methods, and an 
automated trade execution program to sell 75,000 stock index 
futures.
    Since the flash crash, there have been between 15 and 30 
similar disruptions every single year in markets ranging from 
treasuries to crude oil to agriculture futures. With Regulation 
Automated Trading, the CFTC has proposed some rules to try to 
prevent future market disruptions caused or made worse by 
algorithmic trading. This rulemaking is still open, and the 
CFTC is continuing to work on this, hopefully to get it right.
    So I hope that this hearing adds to our understanding of 
this complex issue, and assists the CFTC in its rulemaking.
    I look forward to today's testimony, and I yield back.
    The Chairman. Well, I thank the Ranking Member for his 
comments.
    The chair would request that other Members submit their 
opening statements for the record so our witnesses may begin 
their testimony, and to ensure that there is ample time for 
questions.
    We have asked witnesses today who actually have to live 
with and/or are living with this rule, to give us as close to 
an insider look at the impact the rules will have as we can.
    We have Mr. Greg Wood, Chair, FIA Market Access Committee, 
Washington, D.C. We have Richard Gorelick, CEO of RGM Advisors, 
LLC, in Austin, Texas. Andrew Vrabel, Executive Director, 
Global Investigations, the CME Group, Chicago, Illinois. And 
Mr. Michael Ryan, the Executive Vice President and General 
Counsel, Trading Technologies International, in Chicago as 
well.
    Mr. Wood, the floor is yours for 5 minutes.

    STATEMENT OF GREGORY JOHN WOOD, CHAIRMAN, MARKET ACCESS 
            COMMITTEE, FUTURES INDUSTRY ASSOCIATION;
    DIRECTOR, ELECTRONIC AND ALGORITHMIC EXECUTION, LISTED 
  DERIVATIVES, DEUTSCHE BANK SECURITIES INC., WASHINGTON, D.C.

    Mr. Wood. Chairman Conaway, Ranking Member Peterson, and 
Members of the Committee, thank you for holding this very 
timely hearing on the Commodity Futures Trading Commission's 
proposed Regulation Automated Trading.
    My name is Greg Wood, and I am here today representing the 
Futures Industry Association. I currently serve as the chair of 
the FIA Market Access Committee, the co-chair of the FIA Market 
Technology Division's Automated Trading Committee, and I 
previously served as President of the FIA Market Technology 
Division itself.
    FIA has been working with the industry since well before 
the 2010 flash crash to establish safeguards for electronic 
trading. We have published five documents that include best 
practices, recommendations for risk controls, as well as the 
development, testing, and monitoring of trading software.
    FIA employed ten working groups devoted to analyzing the 
feasibility of the CFTC's proposed Reg AT, and provided 
recommendations for improving the regulation prior to 
finalization. Our efforts have involved the market 
participants, the exchanges, the futures commission merchants 
who act as facilitators for clients seeking to access the 
cleared derivatives markets, as well as other industry 
associations that represent various market constituents.
    Our efforts have been comprehensive, and are outlined fully 
within my written testimony, which also includes points that 
will be discussed further by my fellow witnesses, such as 
concerns regarding the source code provisions of the proposed 
rule, as well as the complications that arise from the use of 
third-party-provided software.
    For the sake of time today, I will focus my comments on 
FCMs and their views, particularly with regards to pre-trade 
risk controls.
    U.S. futures markets have evolved into highly sophisticated 
electronic markets, and all market participants have a 
responsibility appropriate to their participation in the life 
of an order to help minimize the likelihood of a market 
disruption. For that reason, pre-trade risk controls are the 
responsibility of all market participants, and when implemented 
properly and appropriate to the nature of the activity, have 
been proven to be the most effective safeguard for the markets, 
and should be applied comprehensively to all electronic orders, 
not just those of AT persons.
    Rather than defining what constitutes an AT person, and 
using an artificially constructed trigger to require 
registration of those participants, we believe that the most 
important tool for achieving the goal of protecting market 
integrity is requiring the application of pre-trade risk 
controls to all electronic orders, regardless of the 
participant's registration status. Rules should not focus on 
any one specific type of market access, but rather should 
recognize the appropriate application of pre-trade risk 
controls to protect market integrity. Regulations should build 
on and leverage the very successful risk controls and 
safeguards currently in place, instead of proposing new and 
untested systems or procedures that would require significant 
investment by the industry. Requirements should not be one-
size-fits-all. Distinctions should be based on the business 
structure, business model, operational size, and technical 
sophistication of market participants, and the specific 
implementation and location of particular risk controls should 
not be mandated by the CFTC. Instead, the types of controls 
required should be principles-based to provide for flexibility, 
as well as to permit innovation and technological advances that 
could improve future controls.
    While we believe the CFTC can accomplish its objectives in 
Reg AT without new registration requirements by applying risk 
controls to all electronic trading, as previously discussed, we 
understand that the CFTC is concerned that it may be unable to 
enforce rules regarding automated trading against non-
registrants. Thus, in an effort to be responsive to the CFTC's 
concerns, FIA has joined with other trade associations to 
propose a requirement that all electronic trading must pass 
through the pre-trade controls of a CFTC registrant. These 
controls are typically in addition to the risk controls 
provided at the DCM level. The responsibility for implementing 
the appropriate pre-trade risk controls lies either with the 
FCM registrant that is facilitating electronic access to the 
DCM, or in the case of a market participant that is not trading 
through the risk controls of an FCM, with that participant, who 
is also a registrant. In both cases, these pre-trade risk 
controls must be supplemented by DCM-provided risk controls 
configured by the clearing member that grants access to the 
DCM.
    Required controls must meet the core principles of being 
designed to reasonably mitigate the potential for sending 
orders for too large a size to the DCM, sending orders for a 
clearly erroneous price to the DCM, and sending too many 
messages to the DCM.
    We believe that the recommended approach I have outlined 
reflects a thoughtful effort designed to most effectively 
mitigate disruptions in the ever-evolving markets regulated by 
the CFTC.
    Again, I would like to thank you for holding this important 
hearing. Oversight of the CFTC is such an important function of 
this Committee, and we commend you for the time devoted to 
these matters. I will be happy to answer any questions, 
following my fellow panelists' testimony.
    [The prepared statement of Mr. Wood follows:]

    Prepared Statement of Gregory John Wood, Chairman, Market Access
   Committee, Futures Industry Association; Director, Electronic and
  Algorithmic Execution, Listed Derivatives, Deutsche Bank Securities 
                         Inc., Washington, D.C.
    Chairman Conaway and Ranking Member Peterson thank you for holding 
this very timely hearing on the Commodity Futures Trading Commission's 
(CFTC) Proposed Regulation Automated Trading (Reg AT). My name is Greg 
Wood and I am here today representing the Futures Industry Association 
(FIA). FIA's members have been extremely engaged in providing input to 
the CFTC as it seeks to finalize Reg AT. I currently serve as the Co-
Chair of the FIA Market Technology Division Automated Trading 
Committee, the Chair of the FIA Market Access Committee, and I 
previously served as President of the FIA Market Technology Division.
    FIA has been working with the industry since well before the 2010 
Flash Crash to establish safeguards for electronic trading. We have 
published five documents that include best practice recommendations for 
risk controls, developing, testing and monitoring software, and other 
protections.
    FIA employed ten working groups devoted to analyzing the 
feasibility of the CFTC's proposed Reg AT and providing recommendations 
for improving the regulation prior to finalization. Our efforts have 
involved the trading community, the exchanges, market participants and 
the futures commission merchants (FCM), who act as facilitators for 
clients seeking to access the cleared derivatives markets. In March of 
2016, FIA filed a comprehensive comment letter to address the various 
components of the proposal. Subsequently, and in response to a recent 
CFTC Staff Roundtable, FIA has also worked with the Managed Funds 
Association, SIFMA Asset Management Group, and the International Swaps 
& Derivatives Association (together ``the Group'') to present a view 
that has broad agreement across the industry. Further details can be 
seen within the Group's comment letter submitted on June 24th.
    Today, I will focus my comments on FCMs and their views, 
particularly with regards to pre-trade risk controls.
    During the course of a recent CFTC Staff Roundtable, Staff sought 
to elicit suggestions on how to better define Direct Electronic Access 
(DEA) as well as proposals for quantitative measures to reduce the 
current population of AT Persons to which Reg AT would apply. In 
addition, the Staff questioned whether requiring and monitoring 
compliance by AT Persons could be imposed upon FCMs or designated 
contract markets (DCMs). Roundtable participants soundly rejected these 
proposals, as they did not address the real issues and concerns on 
which the Commission and Reg AT should be focused.
    Broadly, across all components of proposed Reg AT, the Group 
believes that:

  1.  Pre-trade risk controls are the responsibility of all market 
            participants, and when implemented properly and appropriate 
            to the nature of the activity, have been proven to be the 
            most effective safeguard for the markets, and should be 
            applied comprehensively to all electronic orders, not just 
            those of AT Persons.

  2.  Rules should not focus on any one specific type of market access, 
            but, rather, should recognize the appropriate application 
            of pre-trade risk controls to protect market integrity.

  3.  Regulation should build on and leverage the very successful risk 
            controls and safeguards currently in place instead of 
            proposing new and untested systems or procedures that would 
            require significant investment by the industry.

  4.  Requirements should not be one-size-fits-all. Distinctions should 
            be based on the business structure, business model, 
            operational size, and technical sophistication of market 
            participants.

  5.  Rules should not be prescriptive.

    I would like to highlight the following Three key points that FIA 
feels should be considered in formulating a regulation that is both 
scalable and effective:
    First, Risk Controls. U.S. Futures markets have evolved into highly 
sophisticated, electronic markets, and all market participants have a 
responsibility appropriate to their participation in the life of an 
order to help minimize the likelihood of a market disruption, and, 
accordingly, all electronic trading should be subject to appropriate 
pre-trade risk controls.\1\
---------------------------------------------------------------------------
    \1\ Such pre-trade risk controls can be implemented directly by the 
market participant or may be administered by the FCM facilitating 
electronic access to the market--including those implemented within 
third-party vendor systems or exchange provided graphical user 
interfaces that the FCM has administrative control over.
---------------------------------------------------------------------------
    Rather than defining what constitutes an AT Person, and using an 
artificially constructed trigger to require registration of those 
participants, we believe that the most important tool for achieving the 
goal of protecting market integrity is requiring the application of 
pre-trade risk controls to all electronic orders, regardless of the 
participant's registration status. To be clear, we are not opposed to a 
regulation category subject to appropriate requirements for that group 
of registrants; however, we believe defining a particular group of 
people and applying risk controls only to registrants does not 
safeguard markets to the full extent the industry believes is needed. 
To that effect, the Group believes:

  <bullet> Each market participant's orders should be subject to pre-
        trade risk controls, depending on how the market participant 
        accesses a DCM. Access can be via self-developed software, a 
        third party provided system or FCM-administered \2\ software 
        and/or services. Orders from market participants leveraging 
        FCM-administered systems, including those provided by third 
        parties, may utilize pre-trade controls administered by the 
        FCM.
---------------------------------------------------------------------------
    \2\ It is important to note that a customer may use the same FCM to 
provide both execution and clearing services (``full-service FCM'') or 
may use one FCM for execution (``executing FCM'') and choose to clear 
their trades through another FCM (``clearing FCM'') by arranging for 
the trades to be given up to the clearing FCM by the executing FCM. In 
this instance, the executing FCM acts as the ``gatekeeper'' to the DCM 
matching engine, and, as such, is the only FCM that can administer risk 
controls at a pre-trade level. Any other FCM(s) that may subsequently 
clear trades for the customer can only provide risk controls on a post-
trade basis once the trades have been given in from the executing FCM.

      It is important to note that the Group believes that market 
        participants not using software that includes FCM-administered 
        risk controls should be responsible for applying risk controls 
---------------------------------------------------------------------------
        to their own orders.

  <bullet> FCMs facilitating electronic access to a DCM should be 
        responsible for implementing appropriate pre-trade risk 
        controls for all electronic trading that passes through those 
        controls that it administers. This can be accomplished by pre-
        trade risk controls provided by the FCM itself, or those 
        provided by software that the FCM has administrative control 
        over.\3\ Where a market participant is responsible for the 
        administration of risk controls pursuant to Reg AT, the FCM may 
        satisfy this responsibility by administering DCM hosted risk 
        controls.
---------------------------------------------------------------------------
    \3\ Note that administration of such controls may be delegated by 
the FCM to another party, such as an introducing broker.

  <bullet> The risk controls proposed in the proposal are too 
        prescriptive. The specific implementation and location of 
        particular risk controls should not be mandated by the CFTC. 
        Instead, the types of controls required should be principles-
        based to provide for flexibility as well as to permit 
        innovation and technological advances that could improve future 
---------------------------------------------------------------------------
        controls.

  <bullet> Identical pre-trade risk controls need not be applied at all 
        points in the order flow. Pre-trade risk controls should not be 
        duplicated in precisely the same manner across the order flow 
        between market participants and DCMs. Pre-trade risk control 
        requirements should permit flexibility such that the controls 
        will be appropriate for their location and the type of 
        electronic access being provided, with varying degrees of 
        sophistication and granularity depending on who is setting the 
        controls.

  <bullet> The standard used to measure compliance should be that pre-
        trade risk controls mitigate the risks associated with 
        electronic trading--rather than attempt to completely prevent 
        them.

    Based on these points, the Group proposes a requirement that all 
electronic trading must pass through the pre-trade risk controls of a 
CFTC registrant--either the market participant itself, or the FCM that 
facilitates electronic access to the DCM. These controls are typically 
in addition to the risk controls provided at the DCM level. The details 
of this proposal are as follows:

  <bullet> Scope of Proposal: All electronic trading must be subject to 
        pre-trade and other risk controls administered by a CFTC 
        registrant that are appropriate to the nature of the activity. 
        The responsibility for implementing the appropriate pre-trade 
        risk controls lies either:

    (a)  with the FCM registrant that is facilitating electronic access 
            to the DCM,
              or

    (b)  in the case of a market participant that is not trading 
            through the risk con-
              trols of an FCM, with that participant, who is also a 
            registrant.

      In both cases, these pre-trade risk controls must be supplemented 
        by DCM-provided risk controls configured by the member of the 
        DCO that grants access to the DCM.

  <bullet> Required Pre-Trade Risk Controls: Required controls must 
        meet the core principles of being designed to reasonably 
        mitigate the potential for:

    1.  Sending orders for too large a size to the DCM;

    2.  Sending orders for a clearly erroneous price to the DCM; and

    3.  Sending too many messages to the DCM.

  <bullet> Identification of Covered Trades/Participants: Market 
        participants trading electronically, without passing through 
        FCM-administered risk controls, either self-identify to 
        applicable DCMs prior to trading, or may be identified via tags 
        on order messages.

  <bullet> Due Diligence Requirement: An FCM must perform due diligence 
        on any customer to which it grants electronic access to the DCM 
        without going through risk controls administered by the FCM. 
        Such due diligence may include--for example--a self-
        certification by the market participant that their orders are 
        subject to appropriate pre-trade and post-trade risk controls. 
        For the avoidance of doubt, such due diligence requirements do 
        not make the FCM responsible for ensuring their customers' 
        compliance with their own regulatory obligations.

    Second, Annual Reports. Reg AT's proposed requirement of annual 
reports to be prepared by market participants and clearing member FCMs 
is ineffective, unnecessary, and redundant with other requirements to 
which registrants are subject. Additionally, the proposed reports will 
inundate DCMs with voluminous policies and procedures related to the 
development and compliance of algorithmic trading systems, as well as 
mountainous snapshots of stale quantitative risk parameter settings 
particularized to a given market participant that will be virtually 
impossible for a DCM to meaningfully assess. Accordingly, the Group 
believes that the objectives of the proposed rule can be met less 
onerously and more practically by requiring affected parties solely to 
certify that they materially comply with relevant aspects of the rule 
and to make such certifications available to a DCM or the CFTC upon 
request.
    Third, Source Code. The Source Code requirement for unfettered 
access to any firm's intellectual property as proposed is unprecedented 
among regulators and threatens commercially valuable intellectual 
property and proprietary trading strategies. The Source Code 
requirement in the proposed rule puts highly proprietary information at 
risk without measurable benefits. Required production of Source Code 
should only be available through a legal process where an owner of 
Source Code has the right to petition a court for appropriate 
protection. There is no sufficient set of access conditions (e.g., 
onsite review, tracking who reviews Source Code, etc.) that would 
adequately offset the dire potential commercial consequences of 
requiring production of Source Code absent the protection of legal 
process.
    Again, I would like to thank you for holding this important 
hearing. Oversight of the CFTC is such an important function of this 
Committee and we commend you for the time devoted to these matters. I 
will be happy to answer any questions following my fellow panelists' 
testimony.
                                Appendix
How Customers of FCMs Access Markets
    A market participant may choose to access a DCM via several 
channels (please refer to Diagram 1 for examples). Many market 
participants may use a combination of channels to facilitate different 
types of trading, using tools that are appropriate to the type of 
activity that they engage in. With very few exceptions, an executing 
FCM facilitates electronic access for the customer, and administers 
pre-trade risk controls appropriate to the type of access.

  1.  In the context of electronic trading, an Application Programming 
            Interface (API) is an interface for electronic access 
            provided by one party for another party to connect directly 
            without using a manual means of placing orders and 
            receiving executions (see Graphical User Interface).

            Examples of APIs include the following--

                  An API provided by a DCM for market participants to 
                connect directly to the matching engine. Such APIs are 
                usually proprietary to the DCM, and will offer 
                functionality such as types of messages, order types, 
                etc., that is specific to the DCM. Connection to the 
                API is overseen by the DCM through a certification 
                process. Subsequent to CFTC 1.73, the DCM provides pre-
                trade risk controls to the FCM that facilitates 
                electronic access (see J on attached diagram).
                  The FCM administers pre-trade risk controls provided 
                to them by the DCM, but greater responsibility lies 
                with the market participant to implement their own pre-
                trade risk controls to mitigate the possibility of 
                inadvertent market disruption.

      (a)  An API provided by an FCM for market participants to connect
                via the FCM infrastructure, with orders subsequently 
            routed via the
                FCM's Automated Order Routing System (AORS) through to 
            the DCM's
                API. Such APIs are usually based on the FIX Protocol, a 
            global standard
                for the exchange of financial information across asset 
            classes. An FCM's
                API may be used for routing orders directly from a 
            customer's trading
                system or from a third-party trading system without 
            using a manual
                means of placing orders and receiving executions (see 
            Graphical User
                Interface).

                          Pre-trade risk management for orders routed 
                        through an FCM's API is provided by the FCM 
                        before the order is subsequently routed to the 
                        DCM (see K M on attached diagram).

      (b)  An API provided by a third-party software provider for 
            market
                participants to connect via their infrastructure, with 
            orders subse-
                quently routed via the software provider's Automated 
            Order Routing Sys-
                tem (AORS) through to the DCM's API. Such APIs are 
            usually based on
                the FIX Protocol, a global standard for the exchange of 
            financial informa-
                tion across asset classes. A software provider API is 
            used for routing or-
                ders directly from a customers' trading system or from 
            a third-party trad-
                ing system without using a manual means of placing 
            orders and receiving
                executions (see Graphical User Interface).

                          Pre-trade risk management for orders routed 
                        through a software provider's API is provided 
                        in their system before the order is 
                        subsequently routed to the DCM (see L on 
                        attached diagram). Such risk controls are 
                        typically administered by the FCM facilitating 
                        access to the DCM via the software provider.\4\
---------------------------------------------------------------------------
    \4\ Note that where a non-FCM clearing member of a DCM uses a 
software provider to access the market, via either API or GUI, there is 
no second line of pre-trade risk control administered by an FCM. In 
such a situation where the non-FCM clearing member sets their own pre-
trade risk controls, additional responsibility may be required on the 
market participant to ensure that all appropriate steps are taken to 
mitigate the possibility of inadvertent market disruption.

  2.  In the context of electronic trading, a Graphical User Interface 
            (GUI) is an interface for access provided by one party for 
            another party to manually place orders and visually receive 
---------------------------------------------------------------------------
            executions.

            Examples of GUIs include the following--

      (a)  A GUI provided by a DCM for market participants to place 
            orders
                directly on the DCM. Such GUIs are usually provided for 
            functionality
                that is unique to the DCM and/or may not be readily 
            available via the
                DCM API. In this situation, the DCM is acting as a 
            software provider,
                and pre-trade risk management for orders entered though 
            such a GUI is
                administered by the FCM facilitating access.

      (b)  A GUI provided by an FCM for market participants to place 
            or-
                ders directly with the FCM, with orders subsequently 
            routed via the
                FCM's Automated Order Routing System (AORS) through to 
            the DCM's
                API. Pre-trade risk management for orders routed 
            through such a GUI
                is provided and administered by the FCM before the 
            order is subse-
                quently routed to the DCM (see K M on attached 
            diagram).

      (c)  A GUI provided by a software provider for market 
            participants to
                place orders directly via their infrastructure, with 
            orders subse-
                quently routed via the vendor's Automated Order Routing 
            System (AORS)
                through to the DCM's API. Pre-trade risk management for 
            orders routed
                through such a GUI is provided by the software provider 
            before the order
                is subsequently routed to the DCM (see L on attached 
            diagram). Such
                risk controls are typically administered by the FCM 
            facilitating access to
                the DCM.

  3.  An Automated Order Routing System (AORS) is software designed to 
            electronically route orders to a DCM, without any 
            subsequent discretion in how to work the order. Any 
            discretion regarding how to work an order based on 
            parameters provided by a trader or customer--for example 
            using algorithmic execution functionality--should be 
            considered ``algorithmic trading'' and considered 
            differently from an AORS.

                  AORSs are utilized by many types of market 
                participants, and typically offer pre-trade risk 
                management functionality. It is important to understand 
                who administers the pre-trade risk controls.
                  Types of AORS include the following:

      (a)  An AORS provided by an FCM where orders may be entered via
                an API or GUI and subsequently routed to the DCM's API 
            (see K
                M on attached diagram) using the FCM's membership on 
            the DCM. Such
                a system may be developed in-house at the FCM or 
            licensed from a third-
                party provider, but in either situation, the AORS is 
            considered part of the
                FCM's infrastructure. Pre-trade risk controls are 
            provided and adminis-
                tered by the FCM on a customer-by-customer basis. The 
            FCM in this sce-
                nario is always the executing FCM, though they may also 
            be the clearing
                FCM based on their customer relationship.

      (b)  An AORS provided by a software provider where orders may be
                entered via an API or GUI and subsequently routed to 
            the DCM's
                API (see L on attached diagram) using an FCM's 
            membership on the
                DCM. The software provider gives FCMs the ability to 
            permission the
                customer to trade and set the appropriate risk limits. 
            Although such a
                system is not fully under the control of an FCM, 
            especially where the
                AORS provides access to multiple FCMs, it can still be 
            considered an ex-
                tension of the FCM's infrastructure because a customer 
            may not trade
                until the FCM sets appropriate pre-trade risk controls. 
            As such, pre-trade
                risk controls are administered by the FCM on a 
            customer-by-customer
                basis. The FCM in this scenario is always the executing 
            FCM, though
                they may also be the clearing FCM based on their 
            customer relationship.

    An AORS utilized by a market participant where orders may be 
entered via an API or GUI and subsequently routed to the DCM's API (see 
J on attached diagram). Such a system may be developed in-house by the 
market participant or licensed from a software provider, but in either 
case is considered part of the participant's infrastructure. Pre-trade 
risk controls are administered directly by the participant, and not by 
an FCM. The AORS is certified by the DCM to connect directly to its 
API, and access is facilitated by an FCM via its membership on the DCM. 
The FCM in this scenario is always the executing FCM, though they may 
also be the clearing FCM based on their customer relationship.
Sample Pre-Trade Risk Control Locations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you.
    Richard, 5 minutes.

 STATEMENT OF RICHARD GORELICK, J.D., CHIEF EXECUTIVE OFFICER, 
                 RGM ADVISORS, LLC, AUSTIN, TX

    Mr. Gorelick. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee. Thank you for the 
opportunity to discuss the CFTC's proposed Reg AT. I will 
briefly summarize my written statement now, which I ask be 
included in the record.
    I am the CEO of RGM Advisors, a proprietary trading firm 
that I co-founded in 2001, that trades electronically in a 
variety of markets. We are based in Austin, Texas, where we 
employ about 100 people. I serve on the CFTC's Technology 
Advisory Committee, and I am involved in industry efforts to 
enhance trading risk management and public policy. I have 
advocated for a regulatory environment that promotes fair 
competition, encourages innovation, improves transparency, 
manages systemic risk, lowers cost for investors and end-users, 
and gives regulators the tools that they need to detect and 
deter abuses.
    Mr. Chairman, I support the Commission's stated aims in Reg 
AT, however, I am concerned that the proposal falls short of 
achieving them. The rule could amount to a lot of work by the 
industry and by the Commission, and at best, accomplish only 
small gains in market integrity. We are fortunate that the 
industry has already put in place multiple layers of risk 
controls. New rules should be principles-based and they should 
be flexible, because technology changes quickly. And since pre-
trade risk controls are the most effective safeguard for market 
integrity, all electronic orders should be subject to them, 
regardless of the type of market participant or their 
registration status.
    Reg AT tries to accomplish too much in a single regulation. 
I support the recommendation of commenters to simplify the 
rulemaking by dividing it into separate parts, focusing first 
on pre-trade risk management.
    One part that should be considered separately is the 
Commission's proposal to create a new requirement for certain 
market participants to register with the Commission. Setting 
aside the curious decision to register these automated traders, 
many of whom never set foot on a trading floor, as floor 
traders, this requirement is unnecessary to accomplish the 
Commission's risk management objectives. My written testimony 
discusses the principles that should guide any automated 
trading regulation, and includes discussion of several other 
provisions in Reg AT.
    I would like to turn to my concern with the rule's 
treatment of source code. Source code is an automated trading 
firm's secret sauce. It comprises very specific and detailed 
computer instructions that embody the firm's unique trading 
strategies. Source code often includes valuable trade secrets, 
developed at significant expense, that directly impact business 
competitiveness. The requirement to turn over valuable 
intellectual property to the government on demand would be 
unprecedented and unreasonable. The proper treatment of IP is 
central to our private enterprise system. The secret formula 
for Coca-Cola is not available to the FDA simply upon request. 
The source code for Google's search algorithms is not available 
to the government without due process. Government agencies must 
make a reasonable showing of cause and use a subpoena to get 
access to private proprietary information. A trading firm's 
source code should be no different.
    For most purposes, source code reviews would be incredibly 
costly for the CFTC. Trading firms have large and complicated 
code bases that change regularly. As an example, my relatively 
small firm has over one million lines of source code associated 
with our current trading system. We make changes almost daily. 
To review source code of multiple firms at any scale would 
require an army of computer programmer regulators. The benefits 
to the CFTC of reviewing source code would, in most cases, be 
very limited. It is implausible that reviewing source code as 
part of an audit or surveillance program would help the CFTC 
prevent market disruptions, or provide meaningful insight into 
how a trading system would operate when interacting in a real 
market. In most cases, surveillance of electronic audit trails 
presents a much more valuable and cost-effective way to 
understand trading activity.
    I can imagine circumstances in which a regulator would have 
a legitimate interest in reviewing parts of a firm's source 
code. However, under those limited circumstances, the regulator 
should be required to use a subpoena and put in place 
appropriate safeguards. As we all know, any agency taking 
possession of source code could raise significant cybersecurity 
concerns.
    Finally, allowing easy government access to source code 
would set a dangerous precedent with foreign governments, such 
as China, who seek to impose similar requirements on U.S. 
firms. We are hopeful that this provision will be revised.
    Thank you for the opportunity to testify, and I welcome the 
Committee's interest in this rulemaking.
    [The prepared statement of Mr. Gorelick follows:]

Prepared Statement of Richard Gorelick, J.D., Chief Executive Officer, 
                     RGM Advisors, LLC, Austin, TX
I. Introduction
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, thank you for the opportunity to join you today to discuss 
the Commodity Futures Trading Commission's (CFTC's or the Commission's) 
proposed regulation on automated trading, or ``Reg AT'' as it is 
commonly known.\1\ I am pleased to be with you today to discuss this 
significant regulatory proposal.
---------------------------------------------------------------------------
    \1\ Proposed Regulation Automated Trading, 80 FR 78824 (Dec. 17, 
2015).
---------------------------------------------------------------------------
    I am the CEO of RGM Advisors, a trading firm located in Austin, TX, 
that I co-founded in 2001. RGM Advisors is a technology-focused, 
quantitative trading firm that trades in a variety of equities and 
futures markets. We use computers to analyze tremendous amounts of 
market data, to determine what trades we want to make, to conduct those 
trades, and to manage risk. We have about 100 employees and most of our 
staff are software developers, information technologists, and 
quantitative researchers. Most of our software systems have been 
developed in-house. Our firm, like many in our sector, trades on a 
proprietary basis, using our own capital to take short-term positions 
in thousands of instruments.
    I serve on the CFTC's Technical Advisory Committee (TAC) and I am a 
member of the FIA Principal Traders Group (FIA PTG) executive 
committee. My written testimony today expands on public comments I have 
shared with the CFTC TAC \2\ and it reflects many of the views that FIA 
PTG has expressed to the Commission.\3\
---------------------------------------------------------------------------
    \2\ See http://www.cftc.gov/idc/groups/public/@newsroom/documents/
file/tac_022316_tran
script.pdf, page 29
    \3\ See https://fia.org/sites/default/files/content_attachments/
2016-03-16_Regulation_AT_
Comment_Letter.pdf and https://fia.org/sites/default/files/2016-06-
24_RegAT_Roundtable_
Group_Comment.pdf.
---------------------------------------------------------------------------
    I have been involved in industry-led efforts to develop best 
practices and guidelines on identifying and mitigating the risks of 
automated and electronic trading. Since 2010, FIA has published six 
papers related to these important topics. As a member of the TAC, I 
have reviewed and commented on CFTC's proposed regulation of automated 
trading since before the Commission first began considering its initial 
concept release.
    The progression of automated trading has provided substantial 
benefits to our markets. Increasing automation and competition have 
helped to improve market quality, increase transparency, and lower 
costs for investors, hedgers and end-users of all sizes. As we 
recognize and work to enhance the many benefits of automated trading, 
we must also ensure that rules and regulations keep pace with 
technological innovation. I have long been a strong advocate for a 
regulatory environment that promotes fair competition, encourages 
innovation, enhances transparency, manages systemic risk, lowers costs 
for investors and hedgers, and gives regulators the tools they need to 
detect and deter abuses.
    I am supportive of the Commission's stated aims in developing Reg 
AT, which are to mitigate the risks arising from algorithmic trading 
activity, to increase transparency with respect to exchange programs 
and activities, and to update Commission rules in response to the 
evolution from pit trading to electronic trading. I appreciate the 
substantial effort put forth by the Commission staff in drafting this 
proposal.
    While these goals are laudable, the proposed rule, as it currently 
stands, falls short of achieving these goals, and is overly 
complicated, costly, and confusing. Some aspects of the proposed rule 
are too broad, while others are too narrow to adequately address risks. 
I am concerned that the rule could amount to quite a lot of work by the 
industry and by the Commission to accomplish disproportionately small 
gains in market integrity, while introducing significant potential 
negative unintended consequences.
    In my testimony, I will first set out generally accepted principles 
for the regulation of automated trading and then share substantive 
concerns with proposed Reg AT.
II. Principles for Regulation of Automated Trading
    There is broad industry consensus on the principles that should 
guide any regulation of automated trading.
    First, it is critical to recognize and leverage the substantial 
risk controls and safeguards that have already been put in place by the 
industry. The CFTC's TAC has provided a forum to explore current 
industry practices with respect to electronic trading. In addition to 
detailed discussions of industry best practices for risk management, 
exchanges (CME and ICE, in particular) have presented thoughtful risk 
controls and extensive surveillance capabilities in great detail. New 
regulation should build on the existing framework that has proven 
successful, and should not try to reinvent that framework.
    Second, to be effective and relevant to dynamic market conditions 
and practices, regulations cannot and should not be overly 
prescriptive. Instead, as has been the CFTC's historical practice, 
regulators should adopt principles-based rules that allow for 
flexibility to distinguish between different activities, business 
structures, and technologies of market participants, as well as 
changing market conditions, among other factors. Technology changes 
quickly, so it is important that the rules are able to stand the test 
of time.
    Third, and most critical, pre-trade risk controls are the most 
effective safeguard for market integrity. Therefore, they should be 
applied comprehensively to all electronic orders, not just certain 
orders submitted by certain types of businesses or submitted through 
certain types of market access. Simply put, all electronic orders 
should be subject to risk controls, not just those from certain types 
of market participants. To do otherwise would create loopholes and 
blind spots.
    To be clear, the application of risk controls to every order does 
not require every market participant to implement its own risk 
controls. The policy should be to ensure that all orders are subject to 
appropriate risk controls that can be provided in various ways by 
market participants, clearing firms, or exchanges.
III. Specific Concerns with Proposed Reg AT
    With respect for the CFTC's significant work on this rule, I 
believe Reg AT tries to accomplish far too much in a single regulation, 
making it unwieldy and impractical. To address this, I support the idea 
of simplifying the rulemaking by breaking it up into separate 
components, in order of importance: (1) pre-trade and other risk 
controls, (2) policies and procedures for the development, testing, 
deployment and monitoring of algorithmic trading (including third-party 
software), and (3) if necessary, registration of certain market 
participants.
    Considering these components separately would allow the Commission 
to focus first on the parts of Reg AT that are most important to market 
integrity and widely supported by industry participants: pre-trade and 
other risk controls. Separating the rulemaking would also allow the 
CFTC to determine the proper scope for each area of regulation.
    My specific concerns with Reg AT fall into the following 
categories: the scope of the proposal, unnecessary registration 
requirements, and access to intellectual property, including source 
code, without due process.
A. The Scope of Reg AT Is Too Broad in Some Parts and Too Narrow in 
        Others
    One of the stated goals of the proposed rule is to reduce the risks 
of automated trading. To accomplish this, it introduces a myriad of 
requirements, both technical and operational in nature, for newly 
defined ``AT Persons.''
    Rather than starting from the principle that all electronic orders 
must be governed by certain risk controls, the rule proposal attempts 
to cover a limited class of market participants within the definition 
of an AT Person. Consequently, the rule would establish a class of 
market participant that would not be required to have risk controls in 
place despite having a similar ability to impact market integrity. As a 
result, the rule may fail in its primary goal of protecting the market.
    In other areas, the Commission's proposal is too broad. In 
particular, the rule would impose a wide range of very specific 
requirements pertaining to how AT Persons manage their automated 
trading operations. These requirements include detailed rules for 
development, testing, documentation, monitoring, training, compliance 
and reporting across several dimensions of a firm's operations. While 
some of these requirements roughly track industry best practices, 
others do not, and most of these requirements are burdensome and do not 
clearly contribute to market integrity.
    As just one example, the proposal includes a provision that would 
require AT Persons to produce an annual report detailing all changes to 
their risk settings during the course of a year and to deliver that 
annual report to the exchanges on which they traded. It is not unusual 
for firms trading hundreds of products to change their risk limits 
multiple times per day. These changes are often made in an exchange-
based interface managed by a clearing firm, and as a result, the 
clearing firm and the exchange know about the risk limit changes in 
real time. While it would amount to a lot of work for AT Persons to 
produce these annual reports and for exchanges to review them, it is 
hard to see what additional information would be communicated in the 
process, or how risk management would be improved. Such onerous 
requirements would both inhibit an AT Person's ability to innovate 
compared to non-AT Persons with similar businesses, and also 
dramatically increase the cost of maintaining algorithmic trading 
operations. These costs would certainly be passed on to market end-
users in the form of higher transaction costs and less liquid markets.
    Moreover, some of the proposed definitions are, in my opinion, too 
broad and, as a result, may be counterproductive. Much of the proposed 
rule is geared toward preventing ``Algorithmic Trading Events'' which 
are defined to include both ``Algorithmic Trading Compliance Issues'' 
and ``Algorithmic Trading Disruptions.'' As a result of these 
definitions, the more comprehensive a firm's policies, the more 
liability it would risk if any practice were found to have varied from 
its written policy. Rational actors would be incented to have fewer 
internal controls, rather than more. Similarly, the rule would prohibit 
firms from ``disrupting or materially degrading'' their own trading. 
This requirement might encourage firms to continue trading in the face 
of potential risk management issues. In my opinion, those provisions 
should be eliminated from their respective definitions.
B. The Registration Requirements Are Unnecessary
    The CFTC is proposing to create a new requirement for certain 
market participants trading solely for their own account and using 
automation to register with the Commission as floor traders. Setting 
aside the curious decision to register these automated traders, many of 
whom never set foot on a trading floor, as ``floor traders,'' this 
requirement is unnecessary. Exchange rules and industry best practices 
already require some types of pre-trade risk management for all market 
participants regardless of registration category. The trading activity 
by the market participants that would be covered by this requirement is 
already managed through exchanges and there is no gap in risk controls. 
The CFTC has the legal authority and should apply appropriate risk 
management requirements broadly to all market participants whether or 
not they are registered with the Commission.\4\
---------------------------------------------------------------------------
    \4\ The Commission already has ample legal authority to impose 
requirements on non-registrants that trade on U.S. futures markets in 
order to prevent disruptive practices expressly described in Section 
4c(a)(5) of the Commodity Exchange Act (``CEA''), as well as ``any 
other trading practice that is disruptive of fair and equitable 
trading.'' Using this authority, the CFTC has a statutory basis to 
enact rules to require all traders (whether registered as AT Persons or 
not) to comply with requirements meant to avoid prohibited conduct.
---------------------------------------------------------------------------
    I support comments by FIA, FIA PTG, and other industry associations 
explaining that registration requirements are unnecessary. I reiterate 
that any market participant, regardless of registration status or type 
of trader, has the potential to disrupt markets. It should be noted 
that when the SEC studied market disruptions (or so-called mini-flash-
crashes) they noted that the majority of such events were caused by 
human mistakes, such as fat-finger errors, rather than algorithmic 
trading bugs. In addition, if the Commission would start from the basic 
principle that all electronic orders should be subject to risk 
controls, and that these requirements should not hinge on registration 
status, the entire rule would become much less complex to design and 
implement.
    Should the CFTC be determined to implement a new registration 
requirement, then such registration should be considered separately and 
apart from the proposed pre-trade risk controls in proposed Reg AT, so 
its potential effects can be given full and careful consideration. Any 
registration requirement should be based upon a new and more suitable 
registration category rather than over-loading the existing ``floor 
trader'' category created for individual market participants standing 
on a trading floor.\5\ At a minimum, the Commission should delay 
adoption of any registration requirement until after it has implemented 
other components of Reg AT to evaluate the necessity of registration, 
which would be costly for new registrants and the Commission, and would 
be a burdensome distraction for the National Futures Association (NFA).
---------------------------------------------------------------------------
    \5\ See http://comments.cftc.gov/PublicComments/
ViewComment.aspx?id=60765 (``Even if the Commission disagrees and 
decides that registration is necessary to ensure compliance with the 
Proposal, CME Group questions whether the Commission has sufficient 
legal authority under the CEA to require registration as a `floor 
trader' of a new type of distinctly non-floor trader. Historically, the 
scope of CFTC registrants has only been expanded when Congress provides 
the Commission with new statutory authority. [. . .] In the absence of 
such new authority from Congress, the Commission proposes to introduce 
otherwise unregistered algorithmic traders who access an exchange 
through DEA into an existing statutory registration category. CME Group 
is not persuaded by the Commission's argument that Congress could have 
intended for the definition of `floor trader' to include only this 
subset of algorithmic traders.'')
---------------------------------------------------------------------------
C. Source Code Should Only be Available to the Government with Due 
        Process
    The final concern I would like to raise today is the CFTC's 
proposed access to source code. The proposed requirement to turn over 
valuable intellectual property (IP) to the government on demand is 
simply unprecedented and unreasonable. The proper treatment of IP lies 
at the heart of our private enterprise system. As noted by CFTC 
Commissioner Giancarlo in connection with the issuing release for Reg 
AT,\6\ the secret formula for Coca Cola is not available to the FDA, 
certainly not on demand. The source code for Google's search algorithms 
is not available to the government without due process. Government 
agencies must make a reasonable showing of cause and get a proper court 
order, such as a subpoena, to gain access to intellectual property.
---------------------------------------------------------------------------
    \6\ See http://www.cftc.gov/idc/groups/public/@newsroom/documents/
file/transcript
112415.pdf, page 39.
---------------------------------------------------------------------------
    A trading firm's source code should be no different. Most modern 
trading firms are very much technology businesses. Many of our staff 
write software, and our source code constitutes important trade secrets 
and valuable IP about our future business plans. Modern trading firms 
invest significant time, effort and money in technological innovation, 
much of which is embodied in source code, and they go to great lengths 
to protect its confidentiality and their competitive edge. Not only 
would this proposed provision set a troubling precedent for government 
access to private information, but it would do so without any 
demonstrable regulatory benefits to offset the significant risk 
associated with the misappropriation of that intellectual property.
    Proposed Reg AT would accomplish this unprecedented access by 
classifying source code as ``books and records'' which would make them 
available to the Commission and the Department of Justice upon request. 
Source code, however, is unlike other books and records such as trade 
blotters and similar records, which can be reasonably protected with 
standard confidentiality. Source code often is comprised of valuable 
trade secrets that represent substantial investment and innovation and 
can directly impact the competitiveness of a business.
    It should be recognized that for most purposes, source code reviews 
would be incredibly costly for the CFTC. Trading firms have very large 
and complicated code bases that change very often. As an example, my 
firm is a relatively small trading firm. We have over a million lines 
of source code associated with our current trading systems. This code 
has been written over 15 years in about ten different programming 
languages. We make changes of one kind or another almost daily. To 
review source code of multiple firms at any scale would require an army 
of computer programmer regulators.
    The benefits to the CFTC of reviewing source code would, in most 
cases, be very limited. It is not plausible that reviewing source code 
as part of an audit or surveillance program would somehow help the CFTC 
prevent future market disruptions or provide any meaningful insight 
into how a trading system would operate in a real market when 
interacting with other traders in different market conditions. In most 
cases, surveillance and analysis of electronic audit trails (such as 
orders, fills, and cancellations) would present a much more valuable 
and cost effective way to understand trading activity.
    I can imagine circumstances in which a government agency, such as 
the CFTC, would have a legitimate interest in reviewing parts of a 
firm's source code. For example, in an enforcement action for market 
abuse, reviewing portions of source code might provide some insight 
into the intent behind the placement of certain orders. However, under 
those limited circumstances, the Commission should be required to get a 
subpoena, and put in place appropriate safeguards. To the extent that 
the CFTC takes possession of any source code, this would raise 
significant information security concerns.
    Moreover, allowing easy government access to source code would set 
a dangerous global precedent with foreign governments, such as China, 
who are seeking to impose similar source code requirements on U.S. 
firms. In fact, the Federal Government recently emphasized the 
importance of intellectual property by signing the Defend Trade Secrets 
Act into law in order to enhance protections against the 
misappropriation of intellectual property. This development has not 
gone unnoticed. In fact, a number of technology and business-focused 
industry organizations have raised this exact point in formal comments 
to the CFTC.\7\
---------------------------------------------------------------------------
    \7\ See http://comments.cftc.gov/PublicComments/
ViewComment.aspx?id=60890&.
---------------------------------------------------------------------------
    We are hopeful that this provision will be revised. CFTC Chairman 
Massad has indicated that the Commission ``take[s] very seriously the 
fact that [the information] is proprietary, it is significant of value 
to firms, and . . . [we] would certainly . . . do everything [the CFTC] 
can to protect confidentiality.'' \8\ As such, the current practice--
which enables the CFTC or Department of Justice to seek a voluntary 
production of source code subject to agreed restrictions, or to request 
such source code via a validly issued subpoena in connection with a 
formal investigation--is sufficient and should be continued.
---------------------------------------------------------------------------
    \8\ See http://www.cftc.gov/idc/groups/public/@newsroom/documents/
file/transcript0610
16.pdf, pages 295-296.
---------------------------------------------------------------------------
    I understand that some regulators have worried that trading firms 
might not adequately retain their source code in such a way that they 
could make it available for inspection. While good software development 
practices already lead firms to retain their source code in software 
control systems, I believe it would be helpful for the Commission to 
work with industry groups to establish a principles-based retention 
policy for source code based on current practices that would ensure 
regulators have access to source code information when needed.\9\ This 
would allow businesses to maintain control over their sensitive 
intellectual property while ensuring regulators can access information 
that they desire, after following appropriate processes.
---------------------------------------------------------------------------
    \9\ See https://fia.org/sites/default/files/2016-06-
24_RegAT_Roundtable_Group_Comment.pdf, page 9-10.
---------------------------------------------------------------------------
IV. Conclusion
    Altogether, proposed Reg AT would impose costly burdens on market 
participants, without commensurate benefits. Our markets are dynamic 
and constantly changing. Mandated risk controls, like those in Reg AT, 
which are overly specific, could quickly become obsolete as markets, 
technology, and trading strategies evolve. Creating checklists and 
written policies might give the appearance of reform, but in practice, 
do not make markets safer or more resilient--and could instead create 
unintended incentives to the contrary.
    The trading community has a direct interest in well-functioning and 
resilient markets. We want to comply with the rules of the road. We 
welcome improvements that actually make the markets safer and more 
efficient. However, when rules serve to impede those goals, we need to 
reconsider them. I am concerned that proposed Reg AT, as designed, 
would not accomplish its stated objective of protecting market 
integrity, because it would leave many electronic orders outside of its 
scope. Moreover, this proposed regulation, as currently written, would 
be costly for market participants and the Commission. These costs would 
ultimately be borne by market end-users in the form of higher 
transaction costs and less liquidity. Finally, the source code access 
provisions put valuable American intellectual property in jeopardy, are 
without precedent, and would have a chilling effect on technology both 
inside and outside of the derivatives world.
    I appreciate the opportunity to testify before you today and I 
welcome the Committee's interest in consideration of this rulemaking. I 
look forward to answering any questions you may have.
    Thank you.
                              [Attachment]
June 24, 2016
Via CFTC Website: http://comments.cftc.gov

  Christopher Kirkpatrick,
  Secretary of the Commission,
  Commodity Futures Trading Commission,
  Washington, D.C.

RE: RIN 3038-AD52--Joint coalition comments in response to CFTC 
            Proposed Regulation AT source code provisions

    Dear Mr. Kirkpatrick:

    The U.S. Chamber of Commerce (the ``Chamber''), the Information 
Technology Industry Council (``ITI''), the Business Software Alliance, 
the International Swaps and Derivatives Association, the Futures 
Industry Association (``FIA''), the FIA Principal Traders Group, Modern 
Markets Initiative, and the Software & Information Industry Association 
write to you in strong opposition to the source code disclosure and 
retention requirements contained in the Commodity Futures Trading 
Commission's (the ``CFTC'') notice of proposed rulemaking on Regulation 
Automated Trading (``Regulation AT'') \1\ and urge you to entirely 
eliminate these requirements from the final version of the rule.
---------------------------------------------------------------------------
    \1\ Commodity Futures Trading Commission, 80 Fed. Reg. 242 
(proposed Dec. 17, 2015) (to be codified at 17 CFR Parts 1, 28, 40, et 
al.).
---------------------------------------------------------------------------
    In short, if not significantly amended, the proprietary source code 
provisions of Regulation AT will:

  (1)  compromise the established and expected due process rights of 
            our members;

  (2)  increase the threat of ``copycat'' measures from other countries 
            and contradict established U.S. policy on intellectual 
            property disclosure;

  (3)  heighten the possibility of cyberattacks against government-
            mandated data repositories; and

  (4)  do little to assist the CFTC in its market surveillance 
            activities.

    While this letter is not an exhaustive listing of all of the issues 
of our associations may have with Regulation AT, we believe that it is 
important that the CFTC appreciate the broad-based opposition we have 
to Regulation AT's proprietary source code provisions.\2\ We elaborate 
in additional detail below.
---------------------------------------------------------------------------
    \2\ For additional detail, please see letter of March 16, 2016 to 
CFTC on Proposed Regulation AT source code provisions, available at the 
following link (https://www.itic.org/dotAsset/469665b9-7552-4763-9569-
b835eb81a585.pdf).
---------------------------------------------------------------------------
Mandating On-Demand Access to Proprietary Source Code Tramples 
        Fundamental Due Process Rights and Attracts Similar Global 
        Responses
    Our chief concern with Regulation AT relates to the unprecedented, 
on-demand access that the CFTC would have to the proprietary source 
code of market participants engaged in algorithmic trading. Simply put, 
the proposed requirements force the disclosure of valuable intellectual 
property to the government based only on a showing that is akin to a 
document request. That type of requested access contradicts widely held 
expectations of due process associated with highly sensitive 
intellectual property--and, indeed, the legal protections that apply to 
any intellectual property in the U.S.
    While the CFTC has recently acknowledged these concerns at a staff 
roundtable, there is no clear explanation as to why the CFTC could not 
use well-established U.S. judicial process to obtain access to 
proprietary source code data when needed. The CFTC and the DOJ have 
long used subpoenas to obtain access to non-public information and can 
continue to do so here. However, Regulation AT would provide an end-run 
around these important protections, eroding the important due process 
rights of these market participants.
    Even more concerning is the precedent that the Regulation AT source 
code provisions would set, which may invite similar requirements in 
other countries. As recently as last year, the United States pushed 
back against a comparable proposal issued by the China Banking 
Regulatory Commission, which would have required American companies 
selling computer equipment to Chinese banks to turn over intellectual 
property and submit source code.\3\ This action is also consistent with 
the U.S. Government's policy against source code disclosure 
requirements in other contexts, as evidenced by previous opposition to 
proposed regulations issued by India's Department of Telecommunications 
relating to 2009-2010 Telecom Network Equipment Certification 
requirements, and by Korea's National Intelligence Service in 2005 
relating to sales of information security software to Korean Government 
agencies. Moreover, the signatories to the Trans-Pacific Partnership 
have also agreed not to require the transfer of, or access to, source 
code of software owned by a person of another party as a condition for 
the import, distribution, sale, or use of such software.\4\
---------------------------------------------------------------------------
    \3\ Paul Mozur and Jane Perlez, China Halts New Policy on Tech for 
Banks, N.Y. Times, Apr. 16, 2015, available at http://www.nytimes.com/
2015/04/17/business/international/china-suspends-rules-on-tech-
companies-serving-banks.html?_r=0.
    \4\ See Article 14.17: Source Code, Trans-Pacific Partnership (ICT 
Annex), available at 
https://ustr.gov/sites/default/files/TPP-Final-Text-Electronic-
Commerce.pdf.
---------------------------------------------------------------------------
    These policy decisions from other parts of the U.S. Government 
demonstrate a strong expression of U.S. Administration policy to defend 
the rights of intellectual property holders from unnecessary disclosure 
to third parties, including government entities. It also signals the 
extent to which the CFTC is a relative outlier compared to other 
financial services and capital markets regulators, and certainly with 
respect to other instrumentalities of the U.S. Government. We believe 
that the CFTC should follow these decisions when finalizing Regulation 
AT, recognize the important of intellectual property to these firms, 
and respect the due process rights of its regulated entities.
Mandating On Demand Access to Proprietary Source Code Is Inefficient 
        and Will Not Assist the CFTC
    Proprietary source code data is extremely difficult to understand 
without its developer, and simply viewing the source code on demand 
would not assist the CFTC in determining if automated trading 
contributed to a market-wide event. Participants at the CFTC's 
roundtable on June 10 noted that source code differs substantially from 
``books and records'' requirements, in that proprietary source code 
does not solely provide information on instructions. Instead, it tells 
the story behind ``why'' and ``how'' a decision is made--much of which 
is impossible to understand without recreating a scenario event with 
the assistance of a developer.
    Consequently, we fail to see how the CFTC's on demand access 
requirements will actually assist the agency in its market surveillance 
and investigative activities. In addition, the CFTC has not provided an 
estimate of the costs for hiring qualified developers that could 
actually analyze the proprietary source code, meaning that the CFTC 
currently does not know how much it would even cost to review 
information within its possession. We question the value of requesting 
on demand access to proprietary source code when the CFTC may not even 
have the resources to analyze it.
Regulation AT Increases the Potential for Cyberattacks and Threatens 
        the Security of Proprietary Source Code
    As proposed, Regulation AT requires automated trading firms to 
maintain source code repositories to manage source code access, 
maintain copies of production code (as well as logs of changes to 
production code), and include an audit trail to determine who made 
changes to source code, under what circumstances, and why.\5\ Such 
repositories must be available for inspection by the CFTC, the DOJ, and 
potentially third parties.
---------------------------------------------------------------------------
    \5\ See supra note 1 at p. 78824.
---------------------------------------------------------------------------
    We strongly object to mandating automated trading firms to create 
source code repositories under the terms established by Regulation AT, 
especially when many companies already maintain such information. 
Moreover, establishing the same across-the-board requirement 
unintentionally makes those repositories ``cyber targets,'' giving 
hackers and others a precise location for obtaining an automated 
trading firm's most valuable intellectual property.
    Moreover, there is substantial reason to believe that proprietary 
source code data would not be safe in a government-mandated repository 
or in the hands of the Federal Government. In the past year, we have 
seen cyberattacks against the Internal Revenue Service,\6\ the Office 
of Personnel Management,\7\ the Federal Deposit Insurance Company,\8\ 
and the Board of Governors of the Federal Reserve.\9\ Even the CFTC 
suffered its own data breach in June of 2012, risking the security of 
its employees' [S]ocial [S]ecurity [N]umbers.\10\ Given how incredibly 
valuable proprietary source code data would potentially be in the hands 
of a hacker, we believe that these data breaches are enough reason for 
the CFTC to eliminate this element of Regulation AT.
---------------------------------------------------------------------------
    \6\ Stephen Dinan, IRS hit by cyberattack, thousands of taxpayers' 
information stolen, The Washington Times, May 26, 2015, available at 
http://www.washingtontimes.com/news/2015/may/26/irs-hit-cyberattack-
thousands-taxpayers-informatio/.
    \7\ Julianne Pepitone, Federal Data Breach: Can the Government 
Protect Itself From Hackers?, NBC News, Jun. 5, 2015, available at 
http://www.nbcnews.com/tech/security/federal-data-breach-can-
government-protect-itself-hackers-n370556.
    \8\ Joe Davidson, FDIC cyberattacks included hit on former 
chairwoman's computer, The Washington Post, May 11, 2016, available at 
https://www.washingtonpost.com/news/powerpost/wp/2016/05/11/fdic-
cyberattacks-included-hit-on-former-chairmans-computer/.
    \9\ David Murphy, House Committee Investigates Federal Reserve 
Cyber-Attacks, PC Mag, Jun. 4, 2016, available at http://www.pcmag.com/
news/344991/house-committee-investigates-federal-reserve-cyber-attacks.
    \10\ Silla Brush, CFTC Data Breach Risks Employees' Social Security 
Numbers, Bloomberg News, June 25, 2015, available at http://
www.bloomberg.com/news/articles/2012-06-25/cftc-data-breach-risks-
employees-social-security-numbers.
---------------------------------------------------------------------------
Conclusion
    While we appreciate the CFTC's need for timely access to data in 
order to fulfill its market surveillance mission, the proprietary 
source code requirements of Regulation AT are a bridge too far. By 
mandating on demand access to proprietary source code and the 
development of source code repositories, the CFTC not only compromises 
established due process rights--it also adopts policy in direct 
contradiction to other agencies of the U.S. Government and increases 
the risk of cyberattack, all while not providing any tangible benefit 
to the CFTC. Consequently, we believe that the proprietary source code 
provisions of Regulation AT should be eliminated in their entirety.
            Sincerely,

BSADThe Software Alliance;
Information Technology Industry Council;
International Swaps and Derivatives Association;
Futures Industry Association;
FIA Principal Traders Group;
Modern Markets Initiative;
Software & Information Industry Association;
U.S. Chamber of Commerce.

    The Chairman. Thanks, Richard.
    Mr. Vrabel, 5 minutes.

          STATEMENT OF ANDREW VRABEL, J.D., EXECUTIVE
            DIRECTOR, GLOBAL HEAD OF INVESTIGATIONS,
         MARKET REGULATION DEPARTMENT, CME GROUP, INC.,
                          CHICAGO, IL

    Mr. Vrabel. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee. My name is Andrew 
Vrabel, I am the Global Head of Investigations at CME Group 
where my teams are responsible in part for monitoring CME's 
markets for aberrant market activity, including activity that 
may be the result of automated trading strategies.
    I am pleased to be here today to discuss the CFTC's 
proposed rule on automated trading, referred to as Reg AT. As 
many of you may be aware, automated trading strategies, or 
algorithmic trading, is a source of considerable liquidity in 
today's markets. These are strategies that are used by all 
types of participants, from commercial end-users to market 
makers, for price discovery and efficient risk management. But 
like any automated process, there are inherent risks associated 
with automated trading, and it is because of this, and CME 
Group's vested interest in preserving the integrity of our 
markets, that we have pioneered innovative market controls, and 
have devoted substantial resources to protect the market from 
potential aberrations and disruptions.
    On top of these measures, which have proven highly 
effective over time, Reg AT aims to mandate additional tools 
and controls which we, unfortunately, think are broad, 
unworkable, and could be counterproductive.
    One particular area of Reg AT that we have concerns with is 
a requirement that the exchanges implement tools and controls 
that would prevent algorithmic traders from committing a 
disruption in the marketplace. Unfortunately, this is an 
unachievable standard. The most robust tools imaginable cannot 
prevent all algorithmic trading disruptions, or all disruptions 
in the markets, for that matter. Instead, we have proffered to 
the CFTC, and we believe that the exchanges, if required to do 
anything, should be to create tools and controls that would 
mitigate rather than prevent the potential for an algorithmic 
trading disruption in the markets.
    Relatedly, Reg AT would also require the exchanges to 
implement tools that would prevent traders from committing 
compliance violations, most of which is already prohibited by 
the Commodity Exchange Act, carrying criminal penalties, and is 
also prohibited by CFTC's regs and exchange rules. The 
exchanges have never been asked to mandate or create a control 
that would guarantee universal compliance. In my experience, 
people intent on violating the law will find a way to do so, 
whether there is a control in place or not. It is for this 
reason we have asked the CFTC to abandon this portion of Reg AT 
in its entirety.
    Reg AT also proposes that the exchanges review extensive 
compliance reports to identify and remediate deficiencies with 
risk controls, development, and testing standards. The weakness 
with this particular approach is that the information contained 
in those compliance reports is backward-looking. It will, 
therefore, be stale the moment the exchanges have an 
opportunity to review it. Beyond that, even if the exchanges 
are asked to review these extensive compliance reports, in 
order to do a substantive review of this type of information, 
it will require highly specialized skills and knowledge that, 
in our experience, is only possessed by the traders and firms 
that created the algorithms themselves. The exchanges are not 
suited, nor should they be, to perform this type of review on a 
regular basis. Instead, we believe that the clearing member 
firms that grant that particular participant access to the 
market is in a strong position to receive from that trader or 
trading firm a certification or a verification that they are in 
compliance with the requirements of Reg AT. Then, if necessary, 
the exchanges can ascertain the veracity of those 
certifications and verifications.
    One notable void in Reg AT with respect to market risk 
controls is that Reg AT would mandate them for only a certain 
subset of algorithmic traders; the so-called AT persons. The 
reason for this void we believe is that the CFTC is primarily 
intent on capturing a set number of new registrants. We believe 
that registration is a secondary concern that, if at all, 
should be addressed in a separate rulemaking. Instead, we think 
that the goal of Reg AT should be on the creation of flexible, 
not-mandated, market-wide risk controls that apply to every 
algorithmic trader order that is submitted to the exchange.
    We, therefore, submitted to the CFTC a proposal or an idea 
of a two-tiered system of market risk controls. One tier of 
risk controls could be administered by the algorithmic trader 
themselves or the clearing firm that provides them access to 
the marketplace, and another level of risk controls would be 
administered by the exchange on a market-wide basis. These two 
levels of control would provide the marketplace adequate, 
necessary, and maximum protections from the potential of an 
algorithmic trading disruption.
    Last, you have heard from others and you will hear more on 
source code. I will keep our comment here specific and limited. 
The Commission has administrative subpoena authority under the 
Commodity Exchange Act, and this affords participants due 
process and a mechanism to preserve the confidentiality of that 
information. Given the sensitivity of source code, we see no 
reason why this approach shouldn't be adequate to the CFTC on a 
going forward basis.
    While the concerns we raise with Reg AT are significant, we 
are hopeful that the CFTC continues to work with the 
marketplace as they have to create a better and stronger rule.
    On behalf of CME Group, I truly appreciate the opportunity 
to be here, and I look forward to answering any questions that 
you may have.
    [The prepared statement of Mr. Vrabel follows:]

 Prepared Statement of Andrew Vrabel, J.D., Executive Director, Global 
Head of Investigations, Market Regulation Department, CME Group, Inc., 
                              Chicago, IL
    Thank you, Chairman Conaway, Ranking Member Peterson and Members of 
the Committee.
    My name is Andrew Vrabel. I am the Executive Director of Global 
Investigations at CME Group, which is part of our Market Regulation 
division. I am pleased to present CME Group's views on the CFTC's 
proposed rules to enhance regulation of algorithmic trading, known as 
``Regulation AT.'' \1\
---------------------------------------------------------------------------
    \1\ See Regulation Automated Trading, 80 Fed. Reg. 78824 (December 
17, 2015); see also Public Staff Roundtable on Elements of Regulation 
Automated Trading; Reopening of Comment Period, 81 Fed. Reg. 36484 
(June 7, 2016).
---------------------------------------------------------------------------
    Algorithmic trading, a type of automated trading, is a source of 
considerable market liquidity today, facilitating price discovery and 
efficient risk management. Yet, as with any automated process, there 
are risks associated with algorithmic trading. To preserve and protect 
the integrity of our markets from these risks, CME Group has pioneered 
innovative risk controls and system safeguards, and continually employs 
substantial human resources and technological capabilities for the 
development, implementation and enhancement of these controls. In my 
role, I see first-hand every day the sophisticated tools our exchanges 
have developed and use to mitigate risks and protect our markets.
    Regulation AT aims to mandate additional standards for protections 
on top of the strong self-regulatory measures that our exchanges 
already apply. We are concerned that much of Regulation AT's framework 
is overly broad in scope, unworkable and could be counterproductive. 
Our comment letters urge the CFTC to re-focus its proposal on the 
essential area of flexible, not mandated, market risk controls that can 
be tailored to the different business operations and roles of traders, 
intermediaries and exchanges to best protect market integrity.\2\ 
Getting Regulation AT right is critically important to all who use our 
markets.
---------------------------------------------------------------------------
    \2\ See Letter from CME Group to CFTC, re: Notice of Proposed 
Rulemaking on Regulation Automated Trading (RIN 3038-AD52), dated March 
16, 2016. See Letter from CME to CFTC re: Reopening of Comment Period 
re: Regulation Automated Trading (RIN 3038-AD52), dated June 24, 2016.
---------------------------------------------------------------------------
    We identify the following key areas where the proposed rulemaking 
needs to be substantially refined:
Regulation AT Should Not Require a Designated Contract Market (``DCM'' 
        or ``Exchange'') To Prevent Algorithmic Trading Disruptions or 
        Algorithmic Trading Compliance Issues
    Our primary concern is that Regulation AT appears to require 
exchanges to prevent Algorithmic Trading Disruptions (``algorithmic 
trading disruptions'').\3\ As CFTC Chairman Massad, observed when 
approving the Proposal, no control--like no rule--can always prevent 
disruptions and other operational problems that may arise from 
algorithmic trading.\4\ We agree. As a result, we believe the 
``prevent'' standard is unachievable. Instead, we urge the CFTC to 
adopt a standard that requires exchanges to implement tools to mitigate 
the effects of an algorithmic trading disruption. Any final rule text 
and accompanying preamble should consistently articulate this 
achievable objective for exchanges.
---------------------------------------------------------------------------
    \3\ As used herein, ``Algorithmic Trading Disruption'' has the 
meaning contained in the Proposal.
    \4\ See Chairman Massad's Statement on November 24, 2015 (http://
www.cftc.gov/PressRoom/SpeechesTestimony/massadstatement112415).
---------------------------------------------------------------------------
    Regulation AT also appears to require exchanges to prevent 
Algorithmic Trading Compliance Issues (``algorithmic trading compliance 
issues'').\5\ The Proposal would require exchanges to prevent an event 
that causes a certain trader to operate in a manner that does not 
comply with the Commodity Exchange Act or its rules and regulations, 
rules of any exchange to which such algorithmic trader submits orders 
through algorithmic trading, the National Futures Association rules, 
the algorithmic traders own internal requirements, or the requirements 
of the trader's clearing firm. We oppose this requirement for two 
reasons. First, as discussed below, we believe Regulation AT generally 
should not attempt to address compliance issues, but should instead 
focus on deterring algorithmic trading disruptions. Second, imposing 
this type of universal compliance obligation on DCMs is a major 
departure from DCMs' traditional self-regulatory role Congress 
envisioned, as reflected in the Core Principles.\6\
---------------------------------------------------------------------------
    \5\ As used herein, ``Algorithmic Trading Compliance Issues'' has 
the meaning contained in the Proposal.
    \6\ See Section 5(d) of the Commodity Exchange Act.
---------------------------------------------------------------------------
    Exchanges have never been asked to guarantee, or provide tools to 
guarantee, the universal compliance by certain market participants 
because such a requirement would be unrealistic and unreasonable. 
People who intend on violating the law, Federal regulation, or rule of 
a self-regulatory organization will find a way. Further, requiring an 
exchange to guarantee compliance and prevent algorithmic trading 
compliance issues could inadvertently create a safe-harbor in an 
enforcement action. If a trader or firm subsequently is accused of 
violating an exchange rule, CFTC regulation, or provision of the 
Commodity Exchange Act, they could cite to an exchange's prior action 
(or inaction) in defense of the allegations. This could significantly 
undermine the effectiveness of an enforcement program and disciplinary 
action.
    What has proven effective is when exchanges operate in the self-
regulatory role Congress envisioned, which includes adopting and 
enforcing rules of conduct related to trading. This serves to not only 
penalize wrongdoers where warranted but also to deter other would-be 
violators, whether they deploy algorithmic trading strategies or are 
manual, point-and-click traders.
Requiring Exchanges To Review and Evaluate Annual Compliance Reports, 
        Policies, and Procedures and Enforce Compliance With Regulation 
        AT Is Unworkable and Beyond the Scope of an Exchange's Role
    CME Group believes the Commission's proposed requirement that 
certain algorithmic traders prepare and submit extensive annual 
compliance reports to exchanges creates an unnecessary administrative 
burden and substantial costs on all parties involved without providing 
significant benefit to market integrity. There are many reasons that 
support removing this aspect of the Proposal. First, the information 
contained in the proposed compliance reports would be stale and not 
representative of how a firm is currently addressing risks by the time 
the reviews are submitted to an exchange. This renders the exchange 
review substantially ineffective at preventing or mitigating a future 
algorithmic trading event.
    Second, exchanges are not practically in a position to assess an 
algorithmic trader's compliance with Regulation AT or issue remediation 
instructions. Assessing pre-trade risk controls designed to prevent or 
even mitigate an algorithmic trading event will be dependent on 
granular aspects of each algorithmic strategy, including inputs, 
variables, and calculations that inform the strategy; system 
architecture; operational infrastructure; and the skills and experience 
of each trader, programmer, and developer. Not only is this information 
highly sensitive and proprietary, but assessing these aspects will 
require highly specialized skills and knowledge possessed only by the 
traders or firms themselves.
    Finally, under the Proposal, a DCM's review of a compliance report 
and remediation instructions, if any, would seemingly endorse the 
policies, procedures, and risk control parameters. This imposes 
significant liability on the exchanges, and again, it potentially 
creates a safe-harbor if an issue subsequently arises.
    As the Commission is well aware, the CME Group exchanges rigorously 
scrutinize the trading on our markets each day pursuant to our 
commitment to protecting the integrity of our markets and complying 
with existing DCM core principle requirements. We routinely monitor the 
market and conduct exhaustive reviews of market events and other 
conduct that might be considered disruptive. As a matter of practice, 
if an algorithm malfunctions and causes a disruption in the market, we 
conduct an in depth review of the participant's risk controls, 
development and testing procedures, and compliance policies. We submit 
that this is the proper role of an exchange and that the Commission 
should not force exchanges to change these well-functioning mechanisms 
as a result of Regulation AT.
    To the extent verification of an algorithmic trader's compliance is 
needed, we believe the clearing member that granted the trader access 
to the exchange would be better positioned to accept a certification of 
compliance as a condition precedent to granting that trader access to 
the market.
    We believe that a refined focus on the risk of market disruptions, 
e.g., algorithmic trading disruptions, would enable the Commission to 
establish a coherent and meaningful framework to address the risks 
presented by algorithmic trading.
Pre-Trade Market Risk Controls Applied to all Algorithmic Traders
    CME Group proposes that two layers of pre-trade risk controls would 
apply to all algorithmic trading orders. The first layer would be 
administered by either the algorithmic trader itself or its clearing 
member that granted access to the exchange. The second layer would be 
developed and administered by the exchange. Both layers of market risk 
controls must be reasonably designed to mitigate the effects of 
algorithmic trading disruptions, and set at a level of granularity 
appropriately tailored to the underlying nature of the algorithmic 
trading activity such that the risk mitigation standard is met.
    CME Group believes that all algorithmic traders should be subject 
to market risk controls. Proposed Regulation AT leaves a control void 
for some algorithmic traders by only requiring market risk controls 
for, the so-called ``AT Persons.'' \7\ The reason for this gap is that 
the CFTC has focused primarily on attempting to capture a set number of 
new registrants. We believe registration is a secondary concern--the 
first aim of any rule in this area should be establishing a blanket of 
market risk controls that applies to all algorithmic trading in a 
consistent manner.
---------------------------------------------------------------------------
    \7\ As used herein, the term ``AT Person'' has the meaning 
contained in the Proposal.
---------------------------------------------------------------------------
    We also believe the long-term effectiveness of any market risk 
control framework is dependent upon market participants being afforded 
flexibility to innovate as trading technology evolves. Accordingly, CME 
Group's alternative framework would not mandate the use of any specific 
market risk control measures. Rather, the rules would establish 
acceptable practices that market participants can follow in order to 
meet the applicable risk mitigation standard, consistent with the 
Commission's history of establishing acceptable practices in other 
areas of DCM core principle compliance.
The Source Code Open Access Requirement Raises Serious Confidentiality 
        Concerns
    Other industry representatives will testify about the source code 
issue. We agree with those who want to avoid undue, routine disclosure 
of their intellectual property to government officials. This provision 
raises serious concerns regarding the confidentiality of proprietary 
information. Currently, if the Commission has reason to believe that it 
needs access to a market participant's source code, it can obtain the 
code subject to adequate confidentiality protections via the subpoena 
process. We know of no reason why this approach should not be 
satisfactory to the CFTC given the sensitivity of the information at 
issue.
          * * * * *
    CME Group appreciates the opportunity to share our views on this 
important rule proposal. We remain hopeful that the CFTC will continue 
to work with all stakeholders to build a stronger and better rule.
    I look forward to answering any questions you might have.

    The Chairman. Thank you.
    Mr. Ryan, 5 minutes.

          STATEMENT OF MICHAEL G. RYAN, EXECUTIVE VICE
             PRESIDENT AND GENERAL COUNSEL, TRADING
         TECHNOLOGIES INTERNATIONAL, INC., CHICAGO, IL

    Mr. Ryan. Good morning, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee. My name is Mike Ryan, 
and I am Executive Vice President and General Counsel of 
Trading Technologies International. We are commonly known as TT 
in the industry.
    TT is an independent software vendor, or ISV, of 
approximately 400 employees. Our headquarters are in Chicago, 
and we have offices in most of the major financial centers 
around the world.
    TT licenses electronic trading systems that enable its 
customers to trade on the 45 major electronic exchanges and 
liquidity platforms globally. TT's products, which are housed 
at our customers' facilities or hosted by TT in co-location 
facilities, enable customers to trade using several automated 
tools, pointing and clicking on a market, or by inputting and 
utilizing their own proprietary algorithms to trade on 
electronic exchanges.
    As an ISV, I believe that TT provides a perspective on some 
of the issues related to the proposed Reg AT that is different 
than many of the other market participants represented here 
today. In that regard, I appreciate the opportunity to testify 
about some practical aspects of the regulation, and how it 
might be implemented using technology in place today.
    I will testify on the following three aspects of Reg AT: 
definition of direct electronic access, or DEA; the need for 
and propriety of a source code repository; and the testing 
requirements related to electronic trading applications. These 
are also addressed in my written testimony, which I ask to be 
included in the record.
    TT believes that the definition of DEA in Reg AT should be 
clarified to indicate that there is no direct electronic access 
where the orders are routed to an exchange through a 
clearinghouse member's trading system, where pre-trade and 
other risk controls can be controlled by such a member, even 
where a trading firm or a third party maintains the physical 
location of the systems. Without clarifying the language, the 
definition of DEA will likely cause many single traders, small 
trading groups, and even larger commercial companies like 
energy firms and agricultural co-ops and merchants who hedge on 
futures exchanges, all of whom trade through DCO members, and 
are often substantial liquidity providers, to have to register 
as floor traders. This will add layers of administrative 
complexity to their businesses, without advancing the risk 
oversight, because a DCO member's oversight is already fully 
integrated into the available trading systems.
    Proposed Reg AT also requires AT persons to maintain a 
source code repository. Source code in a repository could be 
subject to the inspection by both the CFTC and the DOJ, without 
subpoena or any formal opportunity by a source code owner to 
object to endeavor to restrict the manner or access or use of 
the source code. TT believes these requirements in the CFTC and 
DOJ's inspection authority are unnecessarily and 
extraordinarily broad, not likely to provide helpful 
information, likely amount to an unconstitutional taking of 
individuals' property, and are generally unnecessary to achieve 
the goal of the proposed regulations.
    Source code of any trading firm or technology firm goes to 
the essence of the value of such companies. It is highly 
proprietary, trade-secret information that could expose the 
fundamental aspects of a business that provide economic 
advantage over competitors. Making such valuable intellectual 
property readily available to the Commission is unnecessary to 
fulfill the intent of the regulations.
    Source code is also complicated, and the breadth of the 
relevant code might be so expansive that it is hard to fathom 
how it would be compiled, stored, or used effectively by the 
Commission. A useful example of the underlying complexity of 
seemingly simple commands appears in our first comment letter 
to the Commission. Similarly, without the exact same market 
data flowing through it, the myriad software applications 
interacting together may not work the same. Replicating the 
market data is likely a bigger problem than it seems because 
trading programs often coalesce data in various ways, depending 
on many factors.
    Even in the unlikely scenario where the code of an 
algorithm might be helpful, the subpoena power of the 
Commission would be more than adequate to ensure that the code 
is reviewed when truly necessary.
    The last issue that I want to address is the testing 
requirement set forth in Reg AT. TT believes that such testing 
should focus on the output of an algorithmic trading system, 
rather than the source code underlying such systems. As 
proposed, source code underlying an algorithmic trading system 
would be subject to substantial, highly prescriptive testing in 
advance of a system's rollout, and continually thereafter. TT's 
customers test algorithms every day, but the proposed language 
of Reg AT seems to require a registered entity to test software 
code as opposed to the finished product that the entity 
developed or licensed. To the extent the entity licensed the 
product from a third party, the source code is never available 
for testing, and TT sees no reason why the code should be 
required for testing. The reason why customers purchase turnkey 
software is to utilize the product as a whole. Testing of 
components of the source code is not consistent with that 
motivation, and doesn't make achieving the goals of the CFTC 
any more likely.
    Thank you very much for the opportunity to testify before 
you today. I am happy to address any questions you may have.
    [The prepared statement of Mr. Ryan follows:]

  Prepared Statement of Michael G. Ryan, Executive Vice President and 
 General Counsel, Trading Technologies International, Inc., Chicago, IL
    Good morning Chairman Conaway, Ranking Member Peterson, and Members 
of the Committee. My name is Mike Ryan and I am Executive Vice 
President and General Counsel at Trading Technologies International, 
Inc. (``TT''). TT is an independent software vendor (``ISV'') of 
approximately 400 employees, we are headquartered in Chicago and have 
offices in most major financial centers throughout the world. TT 
licenses software trading solutions enabling its customers that include 
the largest banks, commercial firms, hedge funds, proprietary trading 
firms and other professional traders to trade on 45 of the world's 
major electronic exchanges and liquidity platforms. TT's electronic 
trading solutions, which are either housed at our customers' facilities 
or hosted by TT in co-location facilities, enable TT customers to trade 
using several automated trading tools, pointing and clicking on a 
market, or by inputting and utilizing their own proprietary algorithms 
to trade on electronic exchanges.
    Most exchange-traded derivatives are now traded electronically, and 
electronic systems that connect to exchanges, as well as algorithmic 
trading, have introduced new risks to markets that were not present in 
open-outcry environments. The daily increasing enhancements in 
processing and connection technologies including housing trading 
strategies on servers that are co-located with exchange matching 
engines constantly accelerates the speed of trading to new levels and 
amplifies these risks.
    I am proud that TT has historically been in the forefront of 
helping the exchange-traded derivatives industry manage risks 
associated with electronic trading, by offering trading systems that 
include comprehensive risk-management features that can be administered 
by customers, but ultimately controlled by their futures commission 
merchants--who provide the gateway to derivatives exchanges.
    As an ISV, I believe that TT provides a perspective on some of the 
issues relating to the proposed Regulation Automated Trading 
(``Regulation AT'') that is different than many of the other market 
participants represented here today. In that regard, I appreciate the 
opportunity to testify before you and I hope that my testimony will 
help the Committee understand some practical aspects of the regulation 
and how it might be implemented using technology in place today.
    We have raised some concerns about Regulation AT in other formats, 
including through public comment letters \1\ and today I would like to 
testify on the following three aspects of Regulation AT:
---------------------------------------------------------------------------
    \1\ See attached Comment letters dated March 15, 2016 and June 24, 
2016.

---------------------------------------------------------------------------
  (1)  The definition of ``Direct Electronic Access'' (``DEA'');

  (2)  The need for and propriety of a source code repository; and

  (3)  The testing requirements relating to algorithmic trading 
            applications.
(1) Definition of ``Direct Electronic Access''
    TT believes that the definition of DEA in Regulation AT should be 
clarified to indicate that there is no DEA where the orders are routed 
to a Designated Contract Market through the trading/order routing 
system of a member of a derivatives clearing organization (``clearing 
house'' or ``DCO'') where the pre-trade and other risk controls are 
able ultimately to be controlled by such member, including when a third 
party maintains the physical location of the systems.
    As drafted, Regulation AT defines DEA as an arrangement where a 
person electronically transmits an order to an exchange without the 
order first being ``routed through a separate person'' who is a member 
of a clearinghouse to which the exchange submits transactions for 
clearing. As proposed, any non-CFTC registered person engaging in the 
trading of futures or swaps through DEA would be required to register 
with the CFTC as a ``Floor Trader'' and be subject to a host of 
prescriptive requirements--as would all persons designated as ``AT 
Persons'' under the contemplated CFTC rules.
    However the proposed definition of DEA is unclear as it does not 
provide sufficient guidance as to what ``being routed through a 
separate person'' means. The definition of DEA, as drafted, may suggest 
that the order would also have to be routed through a system physically 
controlled by the DCO member, but such physical control really has 
nothing to do with actual control of risk management or the goal of 
enhancing risk management of such orders. The ultimate ability to 
exclusively control risk parameters is the relevant issue and that is 
typically achieved remotely using software applications. For example, 
using TT systems, a risk administrator is able to sit at his or her 
desk in Chicago and set risk parameters for traders who may be 
physically located anywhere in the world.
    One suggestion for modifying the definition would be to add 
``(including through a system physically managed by a third party 
retained by such member to act on its behalf)'' after the phrase ``who 
is a member of a derivatives clearing organization.'' Such 
clarification would not diminish any DCO member's ability to control 
risk, would reflect the manner by which such risk is often administered 
today and the legitimate goal of the new regulation would still be 
achieved.
    Without clarifying the language, the definition of DEA will likely 
capture within the definition of ``Floor Trader'' many single traders, 
small trading groups and even larger companies like energy firms and 
agricultural Co-ops and merchants who hedge on futures exchanges, all 
of whom trade through DCO members and are often substantial liquidity 
providers. The prescriptive requirements imposed on Floor Traders will 
add layers of administrative complexity to their businesses and require 
them to hire expensive compliance experts to their staffs. Yet, no 
further risk oversight would be achieved because a DCO member's 
oversight is already fully integrated into the available trading 
systems.
(2) Source Code Repository and CFTC/Department of Justice Inspection 
        Authority
    Proposed CFTC Regulation AT also requires AT Persons to ``maintain 
a source code repository to manage source code access, persistence, 
copies of all code used in the production environment, and changes to 
such code.'' Source code in a repository would be subject to the 
inspection by both the CFTC and the Department of Justice (``DOJ'') 
without subpoena or any formal opportunity by a source code owner to 
object or endeavor to restrict the manner of access or use of the 
source code.
    Like many in the industry and at least one CFTC Commissioner, TT 
believes these requirements and the CFTC and DOJ's inspection authority 
are unnecessarily and extraordinarily broad, not likely to provide 
helpful information, likely constitutes an unconstitutional taking of 
individuals' property and is generally unnecessary to achieve the goal 
of the proposed regulations. TT recognizes that subsequent to the 
publishing of Regulation AT, the CFTC indicated publicly that it did 
not intend for the source code ``repository'' to be held by the 
Commission, but TT's concerns remain.
a. Source Code Is Highly Proprietary and Typically Not Made Available 
        to Third-Parties
    Except with respect to open source licensing arrangements, to my 
knowledge source code is never licensed under any software license 
agreement offered by any software provider including any ISV in the 
futures or securities industries or any software firm such as Microsoft 
or Google. The source code of any trading firm or technology firm goes 
to the essence of the value of such companies. It is highly 
proprietary, trade secret information that could expose the fundamental 
aspects of a business that provide economic advantage over competitors. 
Making such valuable intellectual property readily available to the 
Commission is unnecessary to fulfill the intent of the regulations. The 
CFTC is no less prone to potential cybersecurity attacks than other 
government agencies and private companies, and two recently well-
publicized instances provide real life examples of why firms would be 
gravely reluctant to turn over their proprietary source code to the 
CFTC or any government agency except under the highest level of 
protections. In each of these cases ex-government regulators--one from 
the New York Federal Reserve Bank and the other from the Food and Drug 
Administration-obtained and shared confidential information from their 
ex-government employers with their then current private employers.
b. Source Code Is Complicated and the Potentially Relevant Amount of 
        Source Code Is Enormous
    Frankly, it is doubtful that source code would readily be useful to 
the Commission. One engineer's source code is rarely drafted in the 
same manner as another engineer's and without proper documentation to 
help decipher the code it is often meaningless. Even with proper 
documentation it would often take insight from multiple engineers to 
decipher the intent of the code and documentation.
    The breadth of the relevant code might also be so expansive that it 
is hard to fathom how it would be compiled, stored or used effectively. 
Each layer of code is very relevant to how an algorithm might function. 
Additionally, any number of different coding languages might be used in 
each application and at each layer of software. TT, alone, uses over 30 
different coding languages.
    A useful example of the underlying complexity of seemingly simple 
commands appears in TT's first comment letter to the Commission.
i. Market Data Adds Another Level of Complexity
    Similarly, without the exact same market data flowing through it, 
the myriad software applications interacting together may not work the 
same. Replicating the market data is likely a bigger problem than it 
seems because trading programs often coalesce data. Moreover, how and 
when coalescing occurs may vary from moment to moment depending on many 
factors such as network routers, firewalls, switches, server hardware, 
operating systems and vendor software.
    Multiplying the complexity exponentially, the Commission would 
likely have to replicate market data at a particular moment from 
multiple markets, because trading algorithms will typically use and 
analyze data from many related markets, for example, equities and/or 
stock options if trading stock index futures. So, even if the 
Commission could recreate the prices in a market precisely as they were 
disseminated by the exchanges or other relevant markets, the software 
would likely act differently on different occasions despite using the 
same market data.
c. Making Source Code Readily Available to Regulators Would Not Reduce 
        the Risks
    Even assuming, for the sake of argument, that the Commission could 
decipher the morass of relevant source code and the complexities of 
dealing with market data, there is no compelling need to gain access to 
the code because it adds very little to reduce the risks of algorithmic 
trading.
    The outcome of the trades are indisputable evidence of the actual 
outcome of an algorithm and are already available in the form of the 
trade data (orders, fills, quotes sent to and matched at each 
exchange). Unusual results and/or repeated outcomes demonstrate the 
intent of traders and usually no more is necessary to establish intent.
    The published guidance from exchanges and the CFTC regarding market 
manipulation cases recognizes that the culpability of a trader depends 
upon the conduct of the trader over time. Single trades rarely, if 
ever, give rise to the sort of culpability that would trigger a market 
manipulation case. Rather it is a series of events and a pattern of 
activity that might indicate a trader's intent or whatever the level of 
culpability is required to prosecute a case. Similarly, the code of an 
algorithm rarely if ever would prove the sort of culpability necessary 
to prove a market manipulation case. Many perfectly legitimate 
algorithms that are typically used to advance innocent trading 
strategies might also be used nefariously by bad actors. For example, 
TT and, I believe, all ISVs in the futures industry have functionality 
in their trading systems that would stop a trader from executing a 
trade with himself. TT's unimaginative name for this feature is ``avoid 
orders that cross.'' Trading with oneself is prohibited on most 
exchanges, so this sort of functionality is mandatory for most of TT's 
customers. However, I understand that some alleged bad actors may have 
utilized this functionality to manipulate markets. The alleged facts in 
these cases are that a large order is entered on one side of the market 
and then another entered to cross the first order. The first order 
would be pulled from the market and the second order would be entered. 
In this scenario, the alleged bad actor would have used an otherwise 
perfectly legitimate trading tool to move the market toward the first 
order, which was never intended to be filled. The functionality (i.e., 
algorithm) would not be helpful to prove manipulation in this case 
because, as mentioned above, there is a perfectly legitimate use for 
the functionality. Rather, only the alleged bad actor's behavior over 
time could establish culpability.
    Even in the unlikely scenario where the code of an algorithm might 
be helpful, the subpoena power of the Commission would be more than 
adequate to insure that the code is reviewed when truly necessary, 
although we continue to question when that would ever be the case. In 
fact, subpoenaing a written description of the intent of a trade or the 
basic algorithm that describes the strategy should be sufficient for 
most regulatory purposes. For example, a basic algorithm might be 
described as simply as ``if market price = X then enter buy order at 
Y.'' Such a simple description indicates the purpose of the algorithm 
much more clearly and easily than the vast expanse of source code that 
might otherwise be required under Regulation AT.
    It is worth noting that over the 17 years that I have worked at TT 
we have been contacted regularly by exchanges and governmental agencies 
like the CFTC and DOJ who are investigating trading manipulation and 
other cases. We are fortunate enough to have a large customer base that 
depends upon TT software every day for their livelihood. Unfortunately 
sometimes our customers are accused of violating regulations or rules 
while trading with TT software. As a result, we are asked to help the 
exchanges and government agencies understand how TT software works so 
that they can better understand what a trader may have been doing. We 
always cooperate to the extent possible by providing verbal 
descriptions, written documentation and tutorials where appropriate. We 
also receive subpoenas relating to these cases and, of course, comply 
by producing information as required. Interestingly, despite such 
regular interaction, we have never once been required to produce the 
source code of any of our products. I believe this is the case because 
source code is not a necessary or desirable piece of evidence that 
might be used to avoid market disruption or prove or disprove bad acts 
in the marketplace.
(3) Section 1.81 Testing Requirements Should Be Limited to Testing 
        Finished Products
    The last issue that I want to address is the testing requirements 
set forth in Regulation AT. TT believes that such testing should focus 
on the output of an Algorithmic Trading system or software rather than 
the source code underlying such systems or software, which would yield 
no material benefit.
    As proposed, source code underlying an Algorithmic Trading system 
would be subject to substantial, highly prescriptive testing in advance 
of a system's roll-out and continually afterwards.
a. Only Testing of the Finished Product Is Relevant to Regulation AT
    Any software product provided by TT to any customer is always 
tested internally by TT and is also available for the customer's 
testing. TT expects that each customer performs appropriate testing 
prior to utilizing the software in production environments, especially 
when the product is an algorithm that might be used for trading. In 
fact, TT offers testing environments that simulate market conditions to 
facilitate such testing. Such functional testing of a product is 
conducted to determine whether the output is consistent with the 
intended purpose of the product. The intended purpose is typically 
described in documentation provided by TT or any other developer of the 
product.
    An important distinction between the sort of testing that clients 
perform every day on their software products and the proposed language 
of Regulation AT seems to be that the proposed rules require a 
registered entity to test software code (see, 1.81(a)(ii)) as opposed 
to the finished product that the entity developed or licensed. To the 
extent the entity licensed the product from a third party, the source 
code is never available for testing and TT sees no reason why the code 
should ever be required for testing. The reason why customers purchase 
turnkey software is to utilize the product as a whole; testing of 
components of the source code is not consistent with that motivation 
and doesn't make achieving the goals of the CFTC any more likely.
    If TT products do not work as expected, TT's customers demand 
changes to the products and if TT fails to address their concerns, TT 
risks losing the customer. In that way companies like TT are 
effectively ``regulated'' by the market for software and systems.
    We cannot envision any type of testing that would be appropriate 
with respect to the code itself. If a line by line test of the code to 
determine whether there are flaws in the way it was written is intended 
by Regulation AT, it is unclear how any such review would provide any 
more or better insight than a test of the product itself to see what 
the outputs are.
    Moreover, taking the extraordinary step of mandating testing or 
review of source code is potentially very damaging to the source code 
owner as indicated previously.
    To the extent third party code is at issue, third party code simply 
will not be made available to licensees. Neither TT nor any other 
commercial software vendor that facilitates algorithmic trading 
licenses source code to its customers and will not willingly do so. We 
believe, respectfully, that any attempt to mandate third party vendors 
to produce such code outside of existing legal procedures, such as 
issuing subpoenas, would be an unprecedented overreach of governmental 
power without any merit.
    Thank you very much for the opportunity to testify before you 
today. I am happy to address any questions you may have.
                              Attachment 1
March 15, 2016
Via Electronic Submission

  Mr. Christopher J. Kirkpatrick,
  Secretary of the Commission,
  Commodity Futures Trading Commission,
  Washington, D.C.

Re: Proposed Rulemaking on Regulation Automated Trading (Regulation AT)

    Dear Mr. Kirkpatrick:

    On behalf of Trading Technologies International, Inc. (``TT''), I 
am submitting this letter to comment on the Proposed Rulemaking on 
Regulating Automated (Regulation AT), specifically with respect to the 
proposed definition of Direct Electronic Access and a requirement that 
AT Persons be required to maintain a source code repository.
I. Background of TT
    TT is an independent software vendor with approximately 400 
employees located in its Chicago headquarters as well as offices in 
most major financial centers throughout the world. TT licenses software 
trading solutions enabling TT's customers to trade on 45 of the world's 
major electronic exchanges and liquidity platforms. TT's customer base 
includes the largest banks, commercial firms, hedge funds, proprietary 
trading firms and other professional traders. TT offers many 
sophisticated software applications for its customers' use such as its 
new software as a service ``TT'' platform, as well as its legacy 
applications such as X_Trader<SUP>'</SUP> and X_Trader<SUP>'</SUP> Pro, 
X_Risk<SUP>'</SUP>, ADL<SUP>'</SUP>, Autotrader<SUP>TM</SUP>, 
Autospreader<SUP>'</SUP> and exchange gateways. TT also hosts its 
customer's infrastructure at facilities co-located or closely situated 
with exchange matching engine technology.
II. Comments on the Proposed Rules
A. New Defined Term: ``Direct Electronic Access''
    TT believes that the definition of ``Direct Electronic Access'' 
(``DEA'') should be clarified to indicate that there is no DEA where 
the orders are routed to a Designated Contract Market through the 
trading/order routing system of a member of a derivatives clearing 
organization (``DCO'') where the pre trade and other risk controls are 
controlled by such member, including when a third party maintains the 
physical location of the systems.
    As drafted, the proposed definition is unclear and does not provide 
sufficient guidance as to what ``being routed through a separate 
person'' that is a member of a DCO means. The definition of DEA, as 
drafted, may suggest that the order would also have to be routed 
through a system physically controlled by the DCO member, but such 
physical control has nothing to do with the goal of enhancing risk 
management of such orders. Control of the risk parameters is the 
relevant issue and the definition of DEA should be altered to make 
clear that where such control exists, there is no DEA.
    The manner by which TT offers access to its trading system is 
typical of independent software vendors in the futures industry and 
although the methods of software distribution are diverse, a futures 
commission merchant (``FCM'') has the ability to fully control the risk 
management settings in every case.\1\ Currently TT offers its software 
and services in four distinct ways:
---------------------------------------------------------------------------
    \1\ Some FCMs choose not to utilize TT's risk controls and instead 
rely on exchange provided risk tools, but the FCM may always control 
risk through the TT system if it chooses to do so.

---------------------------------------------------------------------------
  (1)  traditional on-site licensing;

  (2)  hosted servers;

  (3)  shared hosted servers; and

  (4)  software as a service (``SaaS'').

    On-site licensing involves licensing software that the customer 
installs at its location. In this case the exchange gateway software 
that connects the software with the exchanges is installed on servers 
in a server closet at the customer's location and the client side 
software, that generates the trading screen, would be installed on the 
traders' workstations.
    The last three methods of distribution help many FCMs achieve 
significant cost savings by outsourcing order routing technology to 
third parties without compromising on their control of risk parameters.
    Where TT hosts the servers, TT effectively moves its customers' 
server closets into a TT managed location. In this case TT oversees the 
installation of all server software and maintenance of the applicable 
data lines and network.
    The shared hosted environment is similar in that TT hosts the 
server software, but here end-users can easily clear trades through 
multiple brokers because the physical infrastructure is shared and the 
software enables such relationships.
    The last method is as a fully hosted software as a service 
offering. Here the software is installed on hosted equipment and the 
trader interface is Internet based so there is no software installation 
on the workstation other than minimal code used in the browser.
    In each of the last three examples (hosted, shared and SaaS) the 
servers on which the gateway software connects a trader to an exchange 
sit at a TT managed location--not at a location managed by an FCM. TT 
manages the technical aspects of the hardware, software and 
telecommunication connections while the FCM's retain complete control 
over user set-up and risk management tools that are provided as part of 
the TT order entry systems.
    The current definition of DEA doesn't appear to fully recognize the 
relationship with such third party providers and should be clarified to 
allow for these common situations. One suggestion for modifying the 
definition would be to add ``(including through a system physically 
managed by a third party retained by such member to act on its 
behalf)'' after the phrase ``who is a member of a derivatives clearing 
organization.'' Such clarification would not diminish any FCMs ability 
to control risk and therefore the legitimate goal of the new regulation 
would still be achieved.
    As drafted, the definition of DEA will likely capture within the 
definition of ``Floor Trader'' many single traders, small trading 
groups and even larger companies like energy firms who hedge on futures 
exchanges, all of whom trade through FCMs and are often substantial 
liquidity providers. This will add layers of administrative complexity 
to their businesses and require them to hire expensive compliance 
experts to their staffs. Yet, no further risk oversight would be 
achieved because an FCM's oversight is already fully integrated into 
the available trading systems. The goals of the Commission will not be 
achieved and the cost of compliance for these individuals and small 
groups will often price them out of the market.
B. Source Code Repository
    TT is concerned that the requirement under section  1.81(a), that 
AT Persons ``maintain a source code repository to manage source code 
access, persistence, copies of all code used in the production 
environment, and changes to such code'' is unnecessarily and 
extraordinarily broad, not likely to provide helpful information, 
likely constitutes an unconstitutional taking of individuals' property 
and is generally unnecessary to achieve the goal of the proposed 
regulations. To be clear, TT strongly urges the Commission to remove 
this requirement from the proposed regulation.
1. Source Code Is Highly Proprietary and Typically Not Made Available 
        to Third-Parties
    Although it is unclear exactly what is meant by the term ``source 
code'' in the proposed regulations,\2\ TT assumes that the term source 
code generally means software expressed in a high-level language 
intended to be intelligible by humans. Except with respect to open 
source licensing arrangements, to our knowledge, source code is never 
licensed under any software license agreement offered by any software 
provider including any independent software vendor in the futures or 
securities industries or any software firm such as Microsoft or Google. 
The source code of any trading firm or technology firm goes to the 
essence of the value of such companies. It is highly proprietary, trade 
secret information that could expose the fundamental aspects of a 
business that provide economic advantage over competitors. Making such 
valuable intellectual property readily available to the Commission is 
unnecessary to fulfill the intent of the regulations.
---------------------------------------------------------------------------
    \2\ TT believes this term needs to be clarified if the Commission 
insists on keeping this requirement. The Commission should also clarify 
which source code is relevant. As written, it seems the Commission is 
looking for a wide array of code that would touch all aspects of a 
trading system.
---------------------------------------------------------------------------
    TT is very concerned that despite numerous protections for 
confidential information submitted to the CFTC, there are gaps in such 
protections as well as too many possibilities to escape the CFTC's 
control through unintentional means such as third-party 
cyberattacks.\3\ If trade secrets \4\ are compromised, the trade secret 
status would likely be lost along with a firm's economic advantage over 
its competitors. Such an action would likely amount to an unlawful 
``taking.'' \5\
---------------------------------------------------------------------------
    \3\ Although TT appreciates that a party submitting information to 
the CFTC may request that the information be treated confidentially 
pursuant to the provisions of CFTC Rule 145.9, the Assistant Secretary 
has discretion to grant or deny requests from requestors of non-public 
information. Moreover, it is TT's understanding that Congress, and 
other governmental authorities--both U.S. and non-U.S.--may also 
request non-public information, and a submitter of non-public 
information may not be advised of this request or outcome. Finally, 
despite the best protections by the CFTC, cyberattacks and other 
unauthorized intrusions, as well as the illegitimate actions of staff 
acting contrary to their legal requirements, could compromise the 
sanctity of non-public information submitted to the CFTC.
    \4\ The Uniform Trade Secrets Act (``UTSA'') defines a trade secret 
as:

      <bullet> information, including a formula, pattern, compilation, 
program, device, method, tech-
      nique, or process,

      <bullet> that derives independent economic value, actual or 
potential, from not being generally
      known to or readily ascertainable through appropriate means by 
other persons who might
      obtain economic value from its disclosure or use; and

      <bullet> is the subject of efforts that are reasonable under the 
circumstances to maintain its se
      crecy.

    \5\ See, Ruckelshaus v. Monsanto Co., 467 U.S. 986 (1984).
---------------------------------------------------------------------------
    It is also worth noting that much of the relevant source code 
potentially used by AT Persons comes from third party software 
providers like TT and others such as Microsoft. TT offers multiple 
applications through which a trader could implement an algorithmic 
trading strategy. Yet, TT never licenses its source code and would not 
provide it to its customers in any circumstances. TT is not alone in 
this position. For example, many traders utilize commonly available 
tools such as Microsoft Excel<SUP>'</SUP> to implement their trading 
algorithms. They might develop the algorithm in Excel and connect Excel 
to a commercial trading application like TT. Based on the movement of 
the market and the algorithm, orders might be triggered as a result of 
actions implemented in Excel. TT has not contacted Microsoft, but we 
suspect that software companies like Microsoft would not be willing to 
divulge their source code either.
2. Source Code Is Complicated and the Potentially Relevant Amount of 
        Source Code Is Enormous
    Even if the Commission was able to overcome the legal impediments 
relating to forcing disclosure of trade secrets, it is doubtful that 
such information would readily be useful to the Commission. One 
engineer's source code is rarely drafted in the same manner as another 
engineer's and without proper documentation to help decipher the code 
it is often meaningless. Even with proper documentation it would often 
take insight from multiple engineers to decipher the intent of the code 
and documentation.
    The breadth of the relevant code might also be so expansive that it 
is hard to fathom how it would be compiled, stored or used effectively. 
Each layer of code is very relevant to how an algorithm might function. 
Additionally, any number of different coding languages might be used in 
each application and at each layer of software. TT, alone, uses over 30 
different coding languages.
    In the Excel example above, Excel interacts with TT software, which 
includes and interacts with multiple layers of applications and 
libraries, which interact with other layers of messaging software and 
other systems on down the line until the operating system is utilized. 
In order to recreate the intent of the algorithm through the source 
code, the Commission would need to compile the code in the same 
environment where it was set up, including the same version of each 
layer of code and the same version of the exchange's software. Short of 
that, it would likely not work the same as it was intended or as it 
might have worked at a moment in time. The code behind each layer of 
production software changes often. New releases occur regularly (often 
monthly) plus smaller code patches are released in between. Assuming 
there will always be a time lag between trading activity and when an 
investigation is started, the Commission would need to be able to 
recreate the exact version of code including revisions and interim 
patches of each layer of code that was in use at the point in time of 
the trade. Each layer of code interacts and depends on the other layers 
to work as planned. A single version of a single layer of such code 
could be millions of lines; a repository of all possible code versions 
going back in time for years would be much, much larger and impose an 
immeasurable burden on the industry.
    As an example, consider the following simple algorithm that is 
depicted in TT's ``Algo Design Lab'' application:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          The logic of this simple algorithm is as follows: (1) submit 
        a limit order for the given instrument and quantity at a price 
        equal to the bid; (2) when the bid price changes, re-price the 
        order to be the same as the bid.

    The simple image above belies the complexity and enormous amount of 
source code that generates this image and effects the strategy. One can 
imagine the image above as a depiction of the highest level of code 
used to effect the strategy. The strategy itself would run on a server 
application in the TT environment but it would also touch and be 
dependent upon almost every part of the TT trading system. The way that 
the algorithm subscribes for prices, downloads contract information, 
and routes orders is specific to the way that the underlying components 
have implemented and exposed this functionality. So technically, one 
would need all of the TT system software in order to attempt to 
reproduce its behavior. Hundreds of applications and libraries within 
the TT system itself are essential components and the source code would 
likely add up to millions of lines of code for the TT applications 
only. If the trader used Excel for the algorithm, the Microsoft code 
would also add millions of lines of code most likely. Add to that the 
many other third party applications involved in the process for price 
feeds, analysis, messaging, the operating systems of the workstation 
and the servers among other layers of code and there would be an 
immeasurable morass of code that, in theory, would need to be stored 
and made available to the Commission.
    This is a very simple example. The complexity of this simple 
example is magnified dramatically in a more complex and realistic 
example, not to mention situations where multiple algorithms are in 
question.
3. Market Data Adds Another Level of Complexity
    Similarly, without the exact same market data flowing through it, 
the myriad software applications interacting together may not work the 
same. Replicating the market data is likely a bigger problem than it 
seems because trading programs often coalesce data and how and when 
coalescing happens may vary from moment to moment depending on many 
factors such as network routers, firewalls, switches, server hardware, 
operating system, vendor software, coalescing and conflation factors. 
Multiplying the complexity exponentially, the Commission would likely 
have to replicate market data at a particular moment from multiple 
markets, because trading algorithms will typically use and analyze data 
from multiple related markets, for example, equities and/or stock 
options if trading stock index futures. So, even if the Commission 
could recreate the prices in a market precisely as they were 
disseminated by the exchanges or other relevant markets, the software 
would likely act differently on different occasions despite using the 
same market data.
    Consuming market data is like drinking from a fire hose. The basic 
process by which TT delivers market data to clients is as follows:

  1.  TT receives a market data update from an exchange (e.g., bid 
            price = 100).

  2.  TT broadcasts the update to other servers in TT's trading 
            network.

  3.  The TT system notifies the client application.

  4.  TT receives another market data update (e.g., bid price = 101). 
            If the client has finished processing the last update, the 
            TT system notifies the client of the update. If not, the 
            system waits--and then delivers it when they are ready.

    (i)  While waiting, the TT system might receive thousands more 
            updates. TT
              conflates this data, meaning it overwrites the values 
            that will be delivered
              to them when appropriate. This is done because no one 
            wants to receive
              ``old'' market data updates.

    (ii)  The time it takes a client to process an update depends on a 
            variety of fac-
              tors, including system load, network load and operating 
            system scheduling.
              This makes it extremely difficult to determine the exact 
            price update that
              the client might process to re-price the order. So even 
            with access to iden-
              tical system software, intermediate network and server 
            infrastructure and
              the algorithm, one would likely be unable to reproduce 
            the exact behavior
              of an algorithm for most liquid markets.

    Even assuming, for the sake of argument, that the Commission could 
make heads or tails of the morass of relevant source code and the 
complexities of dealing with market data, there is no compelling need 
to gain access to the code because it adds very little to reduce the 
risks of algorithmic trading. The outcome of the trades are 
indisputable evidence of the actual outcome of an algorithm and are 
already available to every exchange and the Commission in the form of 
the trade data (orders, fills, quotes sent to and matched at each 
exchange). Unusual results and/or repeated outcomes demonstrate the 
intent of traders and usually no more is necessary to establish intent. 
Even where more is necessary, the subpoena power of the Commission 
would be more than adequate to insure that the code is reviewed when 
truly necessary, although we continue to question when that would ever 
truly be necessary. In fact, subpoenaing a written description of the 
intent of a trade or the basic algorithm that describes the strategy 
should be enough without even delving into source code. This would 
amount to a document detailing the logic of the algorithm that would 
direct the trade (e.g., ``if market price = X then enter buy order at 
Y.'')
    The extraordinary burdens described above, the potentially illegal 
or overly damaging intrusion into proprietary source code incurred by 
trading firms and their software suppliers and the questionable benefit 
of obtaining any further code far outweigh any benefit from acquiring 
the code.
          * * * * *
    TT is very concerned that, as drafted, Regulation AT will not 
positively enhance the existing regulatory regime for automated 
trading. We addressed two aspects of the proposal about which 
independent software vendors like TT seem to have good insight. We are 
more than willing to provide additional input about these matters or 
others matters within our expertise.
    Please contact me at (312) 476-1081 if you have any questions or 
seek additional information.
            Respectfully submitted,
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
           
            
Michael G. Ryan,
Executive Vice President and General Counsel.
                              Attachment 2
June 26, 2016
Via Electronic Submission

  Mr. Christopher J. Kirkpatrick,
  Secretary of the Commission,
  Commodity Futures Trading Commission,
  Washington, D.C.

Re: Proposed Rulemaking on Regulation Automated Trading (Regulation AT)

    Dear Mr. Kirkpatrick:

    I am submitting this letter on behalf of Trading Technologies 
International, Inc. (``TT''), to respond to certain issues raised 
during the June 10, 2016 public roundtable discussion regarding 
Regulation AT. Specifically, TT would like to address proposed testing 
requirements for Algorithmic Trading (as defined in Regulation AT) 
systems and software.
Section 1.81 Testing Requirements Should Be Limited to Testing Finished 
        Products
    TT applauds all reasonable regulatory initiatives to ensure that 
market integrity is enhanced through testing of Algorithmic Trading 
systems and software. TT believes that Section 1.81(a) of Regulation 
AT, which would impose certain development and testing requirements for 
Algorithmic Trading systems, should be clarified so that it can be 
implemented in the most practical and useful manner. TT believes that 
such testing should focus on the output of an Algorithmic Trading 
system or software rather than the source code underlying such systems 
or software, which would yield no material benefit.
TT Performs Regular Tests on the Software It Licenses
    As a third party software vendor, TT's view of the proposed rules 
may be different than entities that are directly regulated by the 
Commodity Futures Trading Commission (``CFTC''). TT practices commonly 
accepted development and testing practices and only licenses systems 
and software that have been subject to a rigorous testing protocol. 
This protocol includes:

  <bullet> testing in a development environment separate from a 
        production environment;

  <bullet> back testing and stress testing;

  <bullet> documenting the specifications and requirements of source 
        code; and

  <bullet> retaining of source code in an environment where changes are 
        recorded.

    TT's practices are consistent with the requirements the CFTC 
proposes to be adopted by AT Persons. In fact, other independent 
software vendors in the futures world, and most likely all companies 
that license software and systems, such as Microsoft, Adobe, Google, 
etc., already follow those practices every day in an effort to produce 
software and systems that perform as intended.
Only Testing of the Finished Product Is Relevant to Regulation AT
    As TT indicated in its previous comment letter and during the 
roundtable discussion on Regulation AT, in no event does TT or any 
software vendor in any industry provide access to source code as part 
of its license grant to its customers.\1\ But, any software product 
provided by TT to any customer is always available for the customer's 
testing and TT expects that each customer performs appropriate testing 
prior to utilizing the software in production environments. In fact, TT 
offers testing environments that simulate market conditions to 
facilitate such testing. Such functional testing of a product is 
conducted to determine whether the output is consistent with the 
intended purpose of the product. The intended purpose is typically 
described in documentation provided by the developer of the product.
---------------------------------------------------------------------------
    \1\ The exception to this statement would be vendors who license 
open source software.
---------------------------------------------------------------------------
    If TT products do not work as expected, TT's customers demand 
changes to the products and if TT fails to address their concerns, TT 
risks losing the customer. In that way, companies like TT are 
``regulated'' by the market for software and systems.
    An important distinction between the sort of testing that clients 
perform every day on their third party software products and the 
proposed language of Regulation AT seems to be that the proposed rules 
require a registered entity to test software code (see, 1.81(a)(ii)) as 
opposed to the finished product that the entity licensed. To the extent 
the entity licensed the product from a third party, the code is never 
available for testing and TT sees no reason why the code should ever be 
required for testing. The reason why customers purchase turnkey 
software is to utilize the product as a whole; testing of components of 
the source code is not consistent with that motivation and doesn't make 
achieving the goals of the CFTC any more likely.
    We cannot envision any type of testing that would be appropriate 
with respect to the code itself. If a line by line test of the code to 
determine whether there are flaws in the way it was written is intended 
by Regulation AT, it is unclear how any such review would provide any 
more or better insight than a test of the product itself to see what 
the outputs are.
    Moreover, taking the extraordinary step of mandating testing or 
review of source code is potentially very damaging to the source code 
owner as indicated in TT's prior comment letter, several other comment 
letters and verbal comments to the CFTC.
    To the extent third party code is at issue, third party code simply 
will not be made available to licensees. Neither TT nor any other 
commercial software vendor that facilitates algorithmic trading, such 
as Microsoft through its products like Excel<SUP>'</SUP>,\2\ licenses 
source code to its customers and will not willingly do so.\3\ We 
believe, respectfully, that any attempt to mandate third party vendors 
to produce such code outside of existing legal procedures, such as 
issuing subpoenas, would be an unprecedented overreach of governmental 
power without any merit.
---------------------------------------------------------------------------
    \2\ Excel is a registered trademark of Microsoft Corporation.
    \3\ As indicated in TT's original comment letter, TT has not been 
in contact with Microsoft, but we would suspect that commercial 
software companies like Microsoft would not be willing to divulge their 
source code.
---------------------------------------------------------------------------
Whether a Product Is Licensed from a Third-Party Does Not Change the 
        Appropriate Testing Procedures
    Some have argued that, absent a requirement by the CFTC, an FCM or 
other regulated entity would have no control over how third party code 
might be tested, monitored or altered to address issues that may arise 
in an algorithmic trading environments. When looked at from a practical 
perspective, such an objection has no merit.
    If an FCM was to test an algorithmic trading system it would run 
the algorithm in a simulated environment to determine what the outputs 
of the system would be under various market scenarios. If a problem was 
detected by a tester or compliance specialist, that person would turn 
off the algorithm,\4\ contact the developer of the algorithm, point out 
the problem and ask the developer to fix the problem. The developer 
would then review the code that implemented the algorithm and make any 
appropriate adjustments. Then the algorithm would be retested in the 
simulation environment and the process might repeat itself until the 
algorithm was determined to be running as planned. The process would be 
the same if the problem was discovered in a production environment--the 
algorithm would be turned off and it would be fixed by the developer 
and then tested in a simulation environment before being used again in 
a production environment. If the algorithm had been developed in-house 
at an FCM that developer might sit down the hall from the tester or the 
compliance specialist. If the algorithm was developed by a third party, 
the developer would be a phone call away. The testing would be the same 
and the resolution of any issues would be the same.
---------------------------------------------------------------------------
    \4\ Mandating such a kill switch seems prudent.
---------------------------------------------------------------------------
          * * * * *
    TT, respectfully, remains very concerned that, as drafted, 
Regulation AT will not positively enhance the existing regulatory 
regime for automated trading. We appreciate the opportunities afforded 
to us to comment on Regulation AT and are more than willing to provide 
additional input about these matters or others matters within our 
expertise.
    Please contact me at (312) 476-1081 if you have any questions or 
seek additional information.
            Respectfully submitted,
            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
            
    
Michael G. Ryan,
Executive Vice President and General Counsel.

    The Chairman. I want to thank our witnesses.
    The chair would remind Members they will be recognized for 
questioning in order of seniority for the Members who were here 
at the start of the hearing. After that, Members will be 
recognized in order of arrival. I appreciate Members' 
understanding.
    And with that, I will recognize myself for 5 minutes.
    Mr. Wood, under the broad definitions provided in Reg AT, 
and the ubiquitous use of automated trading in the market, what 
percent of market participants do you think would qualify as AT 
persons?
    Mr. Wood. Thank you for the question, Mr. Chairman. We have 
seen an adoption of automated trading in the futures markets 
that has become prevalent in many ways. Reg AT has tended to 
focus on a particular type of participant. The argument that 
FIA has made is automated trading is used by a lot of different 
types of market participants in one form or another. There are 
people who use highly sophisticated systems that they develop 
themselves, but there are people who also increasingly use 
systems that are provided by software vendors or by the FCM 
community for them to execute more efficiently within the 
futures markets.
    So trying to quantify how much of the market is truly 
algorithmic in nature, it is going to actually be a very high 
percentage. And I would actually defer to Andrew Vrabel here, 
because they use metrics on their orders going into the CME 
Globex platform that actually highlights whether an order is 
manually generated or automated.
    The Chairman. Mr. Vrabel, do you have that number off the 
top of your head?
    Mr. Vrabel. The number off the top of my head is that, in 
our agricultural markets, roughly 50 to 53 percent of total 
volume comes from automated strategies. And as I had mentioned 
before, every type of market participant, not every participant 
but every type of participant uses some form of automated 
trading strategy or another, whether it be, as Greg said, a 
highly complicated algorithm or a simple auto spreader 
available through any ISV or software contractor.
    The Chairman. Mr. Gorelick, some would argue that the CFTC 
should use Reg AT to involve itself in the inner workings of 
algorithmic trading systems to anticipate problems. Is it 
remotely possible that the CFTC would be able to anticipate 
problems in the market by studying source code?
    Mr. Gorelick. I would say it is highly implausible. I was 
trying to think of an analogy that would help to sort of 
explain what this test would be, and it is tricky for a variety 
of reasons but, the best I can come up with, it is sort of like 
taking a car apart, and taking all the pieces and studying them 
in excruciating detail to try and predict traffic patterns. It 
is sort of relevant, if you want to figure out how to build a 
car it is very useful, but it is not the best way to measure 
traffic patterns. What you really need to do is go out there 
and measure. And that is what we are trying to do. By looking 
at source code, with millions of lines, with lots of 
interactions that are very dependent on the specific market 
data that is coming in at a particular time, that is very 
dependent on the hardware that it is running on, the network 
characteristics, it would be very difficult to determine future 
market events by studying source code.
    The Chairman. Let me ask you, some of you mentioned this 
two-tiered level of pre-trade risk controls. Are there barriers 
to those being implemented now on a voluntary basis? Mr. 
Vrabel, is that scheme already in place, the two-tier that you 
talked about?
    Mr. Vrabel. Yes, the scheme is largely already in place. 
The exchanges have comprehensive market integrity controls that 
have been in place for years. By and large, every market 
participant has some degree of risk controls.
    The real question under Reg AT is whether those risk 
controls are adequate, given the scope and scale of that 
particular algorithmic trader. But yes, in our experience, I 
have not encountered a firm that has zero risk controls in 
place.
    The Chairman. Well, I am talking about that two-tiered 
system that you have mentioned where, obviously, the trader 
should have controls in place, the FCM should have controls in 
place, the DCM should have controls, is there something 
preventing the SROs from actually requiring that to be in place 
already?
    Mr. Vrabel. There is not, and the two-tiered model is what 
we have offered instead of a more complicated structure, for 
example, portions of Reg AT lead one to believe that there 
could be as many as three tiers. The exchange has to have an 
appropriate level, the clearing firm has to have a level of 
protection, and the algorithmic trader has to have a level of 
protection. And, redundant measures like that we not believe 
are----
    The Chairman. Okay. The Ranking Member mentioned 15 to 30 
issues a year in which that happened. Are those numbers going 
up or down as a result of the array of controls that self-
imposed has had? Is that getting better or worse?
    Mr. Vrabel. My understanding of that 15 to 30, or 15 to 20 
number, wasn't an analysis of the number of malfunctions that 
have caused a market disruption. Instead, it was based on a 
calculation of markets that have had price swings of a certain 
degree over a period of time. One important thing to note is 
that the preamble to Reg AT notes significant market events 
resulting from algorithmic trading, and the only one in CFTC-
regulated markets is the May 6, 2010, flash crash that the CFTC 
addresses there. And since that point in time, there have been 
12 billion trades on CME's markets.
    Now, obviously, we have had other small events, but the 
risk protections that are in place we believe are adequate, and 
have been adequate to address those.
    The Chairman. Yes. Thank you.
    The Ranking Member, 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    Does the Division of Market Oversight have subpoena 
authority? Does anybody know?
    Mr. Wood. I believe the Division of Enforcement at the CFTC 
does.
    Mr. Peterson. The Enforcement Division has subpoena power?
    Mr. Wood. Yes.
    Mr. Peterson. Is there a Division of Market Oversight?
    Mr. Wood. I believe in this circumstance, the various 
divisions at the CFTC would work together if they needed to 
take this course of action.
    Mr. Peterson. I guess, as with a lot of the stuff that we 
found out as we went through all of this that until you get 
into enforcement, sometimes you can't find out anything about 
what is going on with these things, unless you get into an 
enforcement situation. Is that right?
    Mr. Wood. I believe so, yes.
    Mr. Gorelick. Ranking Member Peterson, that is a good 
question. What I have suggested is that the best way to figure 
out what is going on with an algorithm or with a particular 
trading strategy is to really look at the data, at the orders 
and the fills and the cancellations, and all of the audit trail 
information that is readily available to the exchanges and to 
the CFTC. That is going to give you a much better idea of what 
is going on with the trading strategy than sort of a 
preemptive, extraordinary code review.
    Mr. Peterson. Well, can they get that information?
    Mr. Gorelick. Absolutely. I think that is where ongoing 
investment is warranted. Right now, one of the great advantages 
of electronic trading and of the electronification of our 
markets has been that there is now a complete audit trail 
available of every message that is sent back and forth from the 
exchange by traders and everywhere else. And that allows sort 
of an unprecedented level of transparency into what is going on 
in the markets. Regulators need to continue to develop their 
skills and their technologies and their toolsets to conduct 
that analysis, but right now the exchanges already have 
terrific surveillance capability built on these audit trails, 
and the CFTC has an opportunity to piggyback on that as well.
    Mr. Peterson. Yes. So they don't have enough resources to 
do as much of this as they should, is that----
    Mr. Gorelick. Yes, I am not sure, this is something that 
has come up at the Technology Advisory Committee over the 
years. I think that is really more of an issue for Congress and 
for the CFTC to talk about resource-wise. I certainly think 
that it is an area of focus to make sure that they are 
investing appropriately in both their technology and in their 
analytical capabilities. I think that is going to be a much 
better, more efficient investment than in source code review 
capabilities.
    Mr. Peterson. Are they doing that?
    Mr. Gorelick. I believe they are, yes. Whether it is 
enough, whether it is sufficient, whether they could do it 
better I am not positive about.
    Mr. Peterson. Yes, with a lot of these different issues, it 
seems like people get more tied up in all the enforcement stuff 
and they miss the trees for the forest. When I was on the 
Intelligence Committee, I had a similar issue with the FBI, who 
were not doing what they should be doing, because they were 
more worried about enforcement than they were trying to figure 
out what was going on. Do you think that the CFTC has figured 
this out and is moving in the right direction?
    Mr. Gorelick. I would say that they are moving in the right 
direction. This has clearly been an area of focus and a lot of 
discussion at the Technology Advisory Committee. I do think 
though that this is an area that probably needs more focus. It 
would be a more fruitful avenue to pursue than the source code 
provisions in Reg AT.
    Mr. Peterson. Yes, sir.
    Mr. Ryan. If I may add something. One thing that I want to 
note is that I have been at TT for about 17 years, and we often 
get contacted by the CFTC, sometimes the Department of Justice 
in an enforcement action and the like, and asked questions 
about our technology. The questions are how does it work, can 
you give us some documentation to explain how it works in this 
scenario or that scenario. And we are always there to answer 
those questions. We are always happy to do that. But never once 
in my 17 years at TT have we ever been required to provide 
source code.
    So it just seems to me, the source code avenue is an avenue 
that is not likely to help in this analysis.
    Mr. Peterson. Well, Mr. Chairman, maybe the Committee 
should look into that and find out more about it.
    The Chairman. Well, I do think the proprietary source code, 
the property-taking under the Constitution, they are troubling 
that they can simply request that. It is apparently on 
everybody's mind.
    Do you yield back?
    Mr. Peterson. Yes.
    The Chairman. The gentleman yields back.
    Mr. Goodlatte, 5 minutes.
    Mr. Goodlatte. Mr. Chairman, thank you for holding this 
important hearing. And thank you to the panel for being with us 
today.
    While there may be a number of significant concerns with 
this rule, I would like to zero-in on one particular aspect 
that has been mentioned several times already today in this 
issue of source code repository.
    It seems that through this rule, the CFTC has decided to 
use its legitimate authority to access books and records as a 
means to illegitimately force trading companies to turn over 
valuable intellectual property without first obtaining a 
subpoena. And I am disturbed by this decision and, therefore, I 
have a few questions for the panel.
    First, how difficult is it currently for the CFTC to obtain 
a subpoena for a source code, and who at the CFTC can authorize 
that type of action? Anybody answer that? None of you know?
    Mr. Vrabel.
    Mr. Vrabel. I am by no means an expert on the 
administrative procedures, but my understanding is that an 
administrative subpoena has to be approved by all 
Commissioners.
    Mr. Goodlatte. All the Commissioners, right. But 
nonetheless, if they have a desire to subpoena documents from 
any of the companies that are affected by this, they have the 
ability to do that.
    Second, how will this type of unfettered access to source 
code be beneficial to the CFTC? Would this reduce risk to the 
system, or does CFTC currently retain staff able to easily 
understand and interpret the code? Mr. Gorelick, you have 
commented on this a bit already. Could you elaborate on that?
    Mr. Gorelick. I did. No, I don't think the CFTC has the 
capability to routinely evaluate large amounts of source code. 
The software programs are written in lots of different 
programming languages, they are very extensive, they are 
often--really the best way to understand exactly the inner 
workings is to talk to the software developers involved in 
writing that code.
    As I referenced, I think it would take an army of software 
developer regulators, and I am pretty sure that the CFTC does 
not presently have that capability.
    On a one-off basis in connection with an enforcement action 
with a very narrow set of actions, it may be useful. And I am 
not aware of any circumstances in which the CFTC thought they 
needed source code for that purpose and were unable to get a 
subpoena. What we are really talking about is a due process 
concern. The times in which the CFTC would need to access 
source code, they can get a subpoena, they can use the subpoena 
process, and there will be adequate protections built in.
    Mr. Goodlatte. We are also talking about a security concern 
here, aren't we? I mean isn't this something similar to the 
Apple-FBI dispute where the FBI wanted to compel Apple to 
unlock something? Here, they are asking for the authority to 
have automatic access to it, and once they have automatic 
access to your source code, what are the risks involved that it 
will fall into the wrong hands; either a competitor or a 
criminal, or even a foreign government that might use it to 
manipulate the market?
    Mr. Gorelick. Firms like ours, firms that use automation in 
the markets, generally hold their source code to be very 
important to their business. They take their own precautions to 
protect their source code. They store it in secure ways, they 
secure their network, they have the cybersecurity defenses, 
they have authority about who is allowed to access it and under 
what circumstances. Once it is out of a particular firm and in 
the hands of sort of any third party, the firm loses the 
ability to manage those controls. And as we have seen, there is 
risk that if the information is attacked by third parties in 
some type of a cybersecurity attack, or simply that information 
gets out there. People change jobs, it moves from one place to 
another, and it could really have a negative impact from a 
competitive standpoint. So generally, the issue is who is able 
to have the types of controls that are required.
    Mr. Goodlatte. Right, and it exponentially could increase 
the vulnerability of that source code to discovery by 
individuals who shouldn't have access to it. You have to worry 
about yourself. Businesses are hacked all the time.
    Mr. Gorelick. Right.
    Mr. Goodlatte. Government agencies, retailers, credit card 
companies, the list goes on and on of people who have had 
important information hacked, including, in some instances, 
their very source codes. So if this is in the hands of a 
government agency, that wouldn't inspire your confidence that 
your vital piece of how your business operates will be better 
protected. It will be more vulnerable, will it not?
    Mr. Gorelick. I think that is the case whenever it is 
outside of our hands. A government agency would just be like 
any other third party from that regard that we don't control 
who is able to look at this information, how they are able to 
get it, what security they have put in place. We only like to 
have a very small group of people inside our firm who are 
responsible for those controls, and not more broadly open 
access.
    Mr. Goodlatte. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Scott, 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman.
    I certainly applaud the CFTC's overarching efforts to bring 
the futures markets' regulatory regime into the 21st century. 
And as a matter of fact, it was almost a year ago to the day, 
in July 2015, that the Chicago Mercantile Exchange, CME, 
shuttered the last of its trading pits after 167 years of 
operation. So it makes a great deal of sense that the CFTC move 
on these rules now that trading pits are officially a thing of 
the past. However, when I heard that the CFTC would require 
people affected by this rule to not only retain all copies of 
their source code, but also make it available to the CFTC at 
their demand, without a subpoena. It caused me great alarm.
    So I wanted to first ask the panelists if each of you drew 
the same conclusion that I have, in that the Reg AT being 
unprecedented, and that it could demand source code without a 
subpoena. Everybody agree?
    Mr. Ryan. Yes, I will address that first, if I may, 
Congressman.
    From our perspective, TT and the others in the industry are 
always willing and able to help with useful information, when 
that useful information is available. The biggest concern, in 
addition to the security aspect of handing over the source 
code, is that it is unlikely that in any scenario it is 
actually going to be useful. I gave an example on one of the 
comment letters that I issued to the CFTC that had an image of 
a very simple algorithm. It was just an image where you entered 
an order at the best bid on the market, and if it moved, you 
went with it. It is an image that is maybe about this big.
    Mr. David Scott of Georgia. Yes.
    Mr. Ryan. Okay. The amount of code that goes into 
generating that image and then executing the order that that 
image tries to put into place is incredibly expansive. I mean 
we are talking like millions of lines of code, ultimately, to 
effect that simple of a process.
    Mr. David Scott of Georgia. And let me get rather specific 
here for a moment. And, Mr. Vrabel and Mr. Gorelick, you 
touched on some of this, but do you think that the CFTC should 
have a definition of automated trading that separates out 
automated execution from algorithmic strategies that drive 
trading decisions? My worry stems from the CFTC forcing 
automated traders to share their algorithmic strategies or 
secret recipes with the CFTC, whenever the CFTC wants it. Now, 
couldn't a better solution to this problem be that if the CFTC 
separated out those two definitions, we could better protect 
these secret recipes?
    Mr. Vrabel. Respectfully, Congressman, I don't know if that 
will adequately address the issues. In my experience when our 
teams have reviewed and monitored disruptions in the markets 
resulting from automated trading, algorithmic trading, or 
simple devices like order routers, we see as many malfunctions 
that cause disruptions in the markets from very simple devices 
as we do from highly complex ones.
    Mr. David Scott of Georgia. Yes.
    Mr. Vrabel. So from my perspective, if there is going to be 
risk controls that are addressing automated trading, it would 
need to include the algorithmic, highly complex, and the very 
simple order routing automated strategies.
    Mr. David Scott of Georgia. All right, and determining the 
boundaries of a particular group of market participants is 
always a problem when trying to define the scope of regulation. 
I serve on the Financial Services Committee, and we have that 
problem all the time. But oftentimes we deal with this problem 
by regulating the activity that is being done, as opposed to 
regulating the entity that does it.
    I wonder if we are encountering a similar type of problem 
here with the definition of the AT person. Is the scope of this 
regulation exhaustive, are the lines we are drawing with this 
AT person definition too big, is it too small, and could a 
better way be to regulate the activity that the AT person is 
doing as opposed to regulating the entity?
    Mr. Wood. Congressman, if I can take that one. FIA has 
certainly always advocated that there shouldn't be a very 
strict definition of who is an AT person, because the lines 
have increasingly become blurred between automated and 
algorithmic trading to the point that it becomes meaningless in 
the sense of the interaction with the marketplace. And to your 
point, we have stressed to the Commission that they should be 
looking more at the what, the actual activity, the automated 
nature of the activity in the U.S. futures markets, as opposed 
to trying to look at the who, and trying to create some sort of 
arbitrary categorization where people either fit into that 
category or outside of that category, which really doesn't do 
anything to protect the overall integrity of the marketplace.
    Mr. David Scott of Georgia. Okay. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Lucas, 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And thank you to the 
panel for being here today.
    A big part of what we do is establish a base of information 
and knowledge, in these Committee hearings. So just go back to 
the fundamentals for just a moment, and I would say, Mr. Woods 
or Mr. Gorelick, or whoever would like to answer this question, 
explain to us for just a moment what the benefits of automated 
trading provide to the participants, that fundamental question 
about why this matters. Surely it benefits someone or we 
wouldn't be doing it, right?
    Mr. Gorelick. Absolutely. If you look back at the 
development of the markets over the last 15, 20 years, as 
markets have become more electronic, market participants have 
started to automate a lot of the functions that they did 
previously. So in terms of evaluating market data and what is 
going on, in terms of placing orders, in terms of adjusting 
orders, in terms of managing risk, all of those functions are, 
in many ways, better handled by a computer much more 
efficiently than they were able to be handled previously. And 
the result of all of that is that costs for end-users in the 
markets have come down. And if you look at the data, sort of 
end-user costs in a variety of markets that have become 
increasingly electronic, increasingly automated, and in turn, 
increasingly competitive, the result is that the costs to the 
end-user are much lower. And that is the primary benefit of 
automation.
    Mr. Lucas. Increased efficiency of the process. Absolutely.
    Mr. Ryan, in Reg AT it doesn't appear to provide a real 
definition of what source code is. Is there some universal 
definition that CFTC and other entities like to use?
    Mr. Ryan. Yes.
    Mr. Lucas. Because we have come a long ways in my 40 years 
from playing with COBOL and FORTRAN in those freshman classes 
back in the 1970s.
    Mr. Ryan. Sure. I don't think that the general definition 
of source code, first, I don't think it is really defined in 
the proposed regulation, but I don't think that is too 
controversial a concept. Basically, it is a high-level software 
language that is supposed to be written in a way that is 
intelligible to humans. So it is not the machine language, it 
is not binary code. The part that is more concerning is the 
breadth of the source code that is being requested under the 
regulations.
    Mr. Lucas. One last question. Mention was made about not 
just proprietary code developed by a firm, but vendors being 
available to purchase this from. For curiosity's sake, how much 
of an industry is this, do we have dozens or hundreds of 
vendors who have these products for sale, retail?
    Mr. Ryan. Well, we have----
    Mr. Lucas. And I address that to anyone who would care to 
respond.
    Mr. Ryan. Sure. I mean, actually, others might know it 
better than I do, but we have many. I mean I would say in the 
futures worlds, maybe a dozen or more, or dozens, I guess, 
vendors that are available.
    Mr. Wood. Yes, I would add from an FCM perspective where we 
provide access to our customers, we see many firms who either 
write their own code or are using third parties, or they are 
even using algorithmic trading software provided by ourselves. 
And in terms of numbers, there are, yes, certainly many 
different types of firms that provide different levels of type 
of automation.
    Mr. Lucas. And with the resources involved and the 
sophistication of the users, I would assume this is an 
incredibly competitive process developing this software for 
sale, and I can just imagine how competitive.
    With that, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    Ms. DelBene, 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman. And thanks to all of 
you for spending time with us this morning.
    Everyone has brought up the issue of source code and 
concerns about unfettered access to source code, and not 
maintaining a subpoena standard. Mr. Ryan, brought up the issue 
of kind of the access of code with actual data flows coming in. 
And when you are doing testing and there are obviously the 
requirements on testing within the regulation, can you talk 
about how you develop code and how you test it, test your 
source with data so that you can understand how it is working?
    Mr. Ryan. To a degree, I can talk about that. I am the 
lawyer, I am not the technologist.
    But yes, throughout the development cycle we test the data 
to look at things like how it is working functionally, whether 
there are security issues involved with it, whether the code is 
written appropriately, how it works in relation to the market 
itself. An issue that I have raised on this is that I question 
whether that review of code is really the relevant test, as 
opposed to the review of the output of the product because it 
is that output that is really what is relevant to an analysis 
of whether there is a problem, at the end of the day.
    Ms. DelBene. Do others have feedback on how you test and 
how you combine those two together to one, see if you are 
getting the results that you want in terms of creating the 
product that you thought you were creating?
    Mr. Gorelick. Well, that is a very important point that the 
software in and of itself won't tell you very much about what 
is going to happen in the market. It is really an issue of 
seeing how the software runs in a live market.
    Now, what we do internally is lots of different kinds of 
testing. We do component-level testing where we look at a 
particular piece of code and develop test cases around that to 
make sure it is functionally the way we intend. We do system-
level testing where we actually dummy-up information sources so 
that the information comes, in a way that is as close to what 
we expect to see in the real market as we can. And then we do 
live-market testing where we actually trade these markets, 
after they have passed all of our other tests, at small scale 
in the market to make sure that they do what we expect them to 
do, based on all of our testing.
    There is extensive testing that goes on. The real core of 
the issue is though, from a software standpoint, is looking at 
the software close to enough to let you know how it is going to 
operate in the real live market, and when you are not taking 
into account all the data, the timing issues, the hardware 
issues, the network issues, it is hard to get comfortable that 
there will be a lot of insight gained from that.
    Ms. DelBene. Yes.
    Mr. Wood. And if I can just add to that. Source code is the 
basis for when something is actually running in production. 
There are a lot of runtime parameters; i.e., real-time inputs, 
that come not just from the people who are using the software, 
but also from the market itself. And these are factors that, 
obviously, influence how the software then interacts with the 
market. Generally, across the industry, we have been trying to 
say the only way that you can try and control this is to ensure 
there are appropriate pre-trade risk controls in place to 
mitigate the possibility that something may go wrong, or 
something may occur that could disrupt trading in the 
marketplace.
    Ms. DelBene. All of you are saying if you aren't really 
studying the overall environment, just looking at code and 
looking at the lines of code, you are not necessarily going to 
have the insight you would have unless you saw the entire 
environment, which is the data flowing through the system and 
the output of the system, which I guess speaks to the point 
that you made, Mr. Gorelick, earlier about the resources that 
would be required there.
    Secondarily, then there is the protection, the protection 
of source code and trade secrets and IP, and does anyone have 
any problems with the way things have worked to date in terms 
of having the subpoena standard that has been in place?
    Mr. Wood. One thing I would just say to that is it usually 
takes several steps before it gets to a subpoena level. Working 
for an FCM, we often get inquiries from both the SROs and from 
the CFTC for a section 4g inquiry where they are asking for 
information. And, of course, we will try our best to provide 
that information. We will talk to our customers if it involves 
their customers, if they are direct members of the SRO, 
obviously, they would be directly approached. So we would go 
through all appropriate steps to provide as much information 
and background before we got to the subpoena process.
    Ms. DelBene. Thank you so much.
    My time has expired. I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields back.
    Mr. King, 5 minutes.
    Mr. King. Thank you, Mr. Chairman. And I thank the 
witnesses for your testimony.
    I turn first to Mr. Gorelick, and I pose a question this 
way. All the things we are talking about here with algorithmic 
trading, could you paint for us, since you have been really 
good metaphorically so far, worst case scenario, if we did 
nothing and let this thing just race where would it go, what 
would be the worst case scenario?
    Mr. Gorelick. Markets certainly have experienced 
disruption, and there has been manipulation. There has really 
never been a market in the history that has not had some kind 
of problems with it, and some of those problems have come 
forward as the markets have been electronified and automated.
    My sense is that there are a lot of safeguards that the 
industry has already put in place to really mitigate the risk 
of the worst case scenarios that we are talking about; markets 
spinning out of control in some way, that there are multiple 
layers of risk controls, there are best practices that have 
been discussed widely, there are audit functions from the 
exchanges, there are lots of things that have gone on over the 
years to help create and innovate multiple layers of risk 
controls to help keep the market in line, and by and large, 
they work extremely well. Our job here today is to think about 
those worst case scenarios, and think about the events in which 
in which things have gone wrong, but it is important to note 
that almost all day, every day, markets trade and function 
extremely well.
    So my sense is that, generally speaking, the worst case 
scenarios are largely mitigated, but we need to keep after it. 
We need to improve our data analysis skills from the regulatory 
standpoint, we need to continue to invest in technology, and we 
need to continue to develop best practices in a flexible 
regulatory environment.
    Mr. King. I tend to agree with you about the corrections 
that would take place along the way, but what about worst case?
    Mr. Gorelick. Right. I think the worst case----
    Mr. King. How would that come about?
    Mr. Gorelick. Yes, sure. What we are all worried about is 
market disruption such as the flash crash where the market went 
down very quickly and then recovered very quickly, without a 
lot seeming to happen to explain that quick turnaround.
    Mr. King. Okay, let me dial this back to the 2007 or 2008, 
the broader financial market near-collapse that we had, and the 
invention of the concept of too big to be allowed to fail. And 
if I recall, the insurance component of that was AIG, who went 
clear to the bottom. But there were people buying that on the 
way down, or there wouldn't have been a market, and those folks 
that bought it all the way to the bottom made a lot of money 
coming back the other way. So I might paint that as a worst 
case scenario with regard to those markets. Is there a similar 
scenario that you could paint with regard to the algorithmic 
trading?
    Mr. Gorelick. Yes, that would be the concern, again, that 
market prices don't reflect real market realities. And 
typically speaking, there are so many firms looking at these 
markets and trading for those opportunities that, if things are 
working well, it pushes everything back in line. But if you 
have markets that are trading away from fair value for extended 
periods of time, that is a market malfunction, and for most 
people it is probably an opportunity for others. And that is an 
important way to think about it.
    Mr. King. And would you say that the more experience and 
history we have with these market fluctuations, the fewer 
fluctuations we have, because you would have more traders that 
would identify it earlier, and those corrections would come 
into place naturally and more quickly?
    Mr. Gorelick. Absolutely. And one of the good things about 
the market changes that we have seen in this automated market 
is we are no longer just relying on several dozens of traders 
in a trading pit to be able to provide all that liquidity. We 
have the opportunity for people from all around the country and 
all around the world to look at this data on a level playing 
field, and try and push the markets back in place. I think that 
has resulted in fairer markets with better pricing and more 
liquidity.
    Mr. King. All in real-time, which they don't conceive of 
that in those Marxist countries.
    I turn to Mr. Vrabel, and would you agree there is natural 
market corrections?
    Mr. Vrabel. I do, and I see it. Part of my team structure 
is to review market events. We have reviewed every event from 
the flash crash through the recent market turmoil with Brexit, 
and we see corrective activity from participants. An example is 
if we look at August 24, 2015, when the Chinese equity market 
crashed, which led to a precipitous decline in our markets, we 
saw vastly different market activity than we did during the 
Brexit days. And a lot of this, I believe, based on having 
talked to firms, is that they learned from the market event of 
August 24, they learned from the Treasury flash crash of 
October 15 how to adjust to the market.
    Mr. King. And quickly, I ask you, do you believe that our 
traders are adequately collateralized?
    Mr. Vrabel. That the traders are adequately capitalized?
    Mr. King. Collateralized.
    Mr. Vrabel. Collateralized.
    Mr. King. Yes. Do they have their collateral underneath 
their trades adequately?
    Mr. Vrabel. Yes. And we have controls in place from our 
clearinghouse structure, we have tools in place that allow 
firms to set capital limitations or risk limitations. So yes, I 
do believe so.
    Mr. King. Thank you very much. I thank all the witnesses.
    I yield back the balance of my time.
    The Chairman. The gentleman's time has expired.
    Ms. Adams, 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman, Ranking Member 
Peterson. And thank you, gentlemen.
    High-frequency trading has certainly taken off quite a bit, 
and it is taking the trading industry by storm, with mixed 
results. While it is clear that the technology used in our 
financial markets is constantly evolving, we must be cautious 
and make sure that there are standards in place to regulate 
these new technologies. Obviously, Reg AT seeks to provide a 
regulatory regime for market participants that engage in high-
frequency trading, but what about the companies that only write 
trading algorithms and sell them to market participants? They 
are not market participants, but service providers to market 
participants, and yet you can imagine that if one of the 
algorithms they provided is faulty in some way, this could 
cause or contribute to a market disruption.
    Mr. Ryan, what would be the best way to monitor or regulate 
third-parties who provide the technology, but do not trade?
    Mr. Ryan. Well, thank you for the question, Congresswoman. 
It is an interesting one.
    TT is generally not the type of entity that you are talking 
about. Although we offer some algorithmic trading tools, for 
the most part, we enable our customers to utilize their own 
algorithms onto our systems, or using our systems.
    Having said that, I believe that the answer to your 
question is that the algorithms that are provided by third 
parties can be tested by the traders and by the registered 
entities as products to see how they work in the market, and to 
see whether the intended effect actually happens. That is 
something that can be done today, and that is the appropriate 
way to test those types of tools.
    Mr. Wood. If I may just add to that.
    Ms. Adams. Yes.
    Mr. Wood. The FMCs have a responsibility in providing 
access to the U.S. futures markets. We talk to customers who 
are using different types of software, and obviously, everyone 
has a responsibility to ensure what they are using to interact 
with the market is appropriate and has been tested. And 
obviously, a software provider has a similar responsibility to 
ensure that their software has been adequately tested. However, 
when it comes to being used in the marketplace, it comes, 
again, back to these real-time parameters that are used around 
the software. And we in the FCM community will have many 
conversations with our clients about the types of software they 
use, the types of market access they want to use, and the types 
of risk controls that should be put in place appropriately. And 
to the previous question around collateralization of clients, 
the types of risk controls that we agree to put in place with 
our clients are based on a risk assessment of the client, and 
they will then act as a speed bump in situations where there 
may be overtrading. Now, overtrading may be deliberate or it 
may be accidental through the way an algorithmic trading system 
or automated trading system is using, but again, it comes back 
to the fact that we have to have risk controls in place to 
minimize any possibility that something may go wrong.
    Ms. Adams. Thank you. Several comments submitted during the 
comment period for Reg AT suggest that a lot of the definitions 
included in the proposed regulation are overly broad, 
particularly with regard to the definitions of an AT person, 
algorithmic trading, and floor trader. So what do you believe, 
and anybody can answer this, is the best way to set those 
definitions, and what are some of the challenges in drawing 
those lines, and should it be based on speed or on the way a 
market participant enters orders?
    Mr. Gorelick. There are a lot of concerns with the 
definitions that have been expressed and kicked around. One of 
the opportunities that we have, if the goal is to improve 
market integrity and sort of relatively quickly, is to not 
worry about defining classes of participants with great detail 
because everyone will have different opinions on what the right 
definition is and who should be covered by what, but rather 
focus on making sure that there are risk controls on every 
order that goes into the market.
    So if we do that, we don't need to focus on some of these 
boundary questions, and instead just worry about appropriate 
risk controls at every level of the process for all electronic 
orders.
    Mr. Wood. And if I can just add to that. One of the 
challenges with trying to create some sort of arbitrary 
boundary, as Richard said, and we have seen this in Europe as 
well where people have tried to create definitions of high-
frequency trading, I was part of the CFTC Technology Advisory 
Committee, along with Richard, where we were trying to come up 
with a definition of high-frequency trading, and we decided we 
would not come up with a definition because, first, it would be 
very broad, and it is a mechanism, not necessarily a style of 
trading, but also it creates a situation where you can almost 
arbitrage the situation by saying if I don't meet the metrics 
that have been set as the boundary, therefore, I do not have to 
comply with this categorization.
    Ms. Adams. Thank you. I am out of time. Mr. Chairman, thank 
you, I yield back.
    The Chairman. The gentlelady's time has expired.
    Mr. Crawford, 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. I thank the 
gentlemen for being here today.
    Mr. Gorelick, in 1992, Congress required the registration 
of floor traders to prevent felons from participating in the 
commodities markets. Today, the CFTC is attempting to use that 
same floor trader registration requirement to regulate the 
activities of proprietary trading firms, most of whom would 
qualify as floor traders under Reg AT. Is there any harm in 
stretching the definition of floor trader to encompass those 
market participants?
    Mr. Gorelick. I am thinking about it from is there any 
benefit in doing that. I am sort of taking the flipside of that 
question because I don't think it is necessary to create a new 
registration category in order to accomplish the Commission's 
risk management objectives. So I would start off by sort of 
questioning the benefit that is sought to be achieved with that 
new categorization. I would also say there are some obvious 
awkwardness around trying to shoehorn a group of market 
participants into an old definition. The old definition, for 
example, was geared towards individuals standing on a trading 
floor, as opposed to a firm.
    Mr. Crawford. Yes.
    Mr. Gorelick. And there would be a lot of things that need 
to be smoothed out. What I have suggested is that it would make 
more sense to consider the registration requirements separately 
from the risk management components here, so that the 
Commission could figure out what the right categorizations 
might be, who they are trying to capture. More importantly, 
what are the benefits that they seek to achieve through that 
registration.
    Mr. Crawford. What is your primary objection to the 
agency's definition of direct electronic access?
    Mr. Gorelick. Yes, I have not questioned the details of the 
definition as much as the need for that definition, again. If 
we are putting risk controls on all electronic orders, the 
question of exactly the mode in which someone connects to the 
market becomes irrelevant and unimportant. We can just make 
sure then that we have the appropriate levels and layers of 
risk controls, regardless of the method of access.
    Mr. Crawford. And, Mr. Ryan, the same question to you.
    Mr. Ryan. Yes, I mean I agree with what Mr. Gorelick just 
indicated. However, I will also add that we have raised 
concerns because we definitely have individual end-users who, 
for example, trade on their own account. And I actually had a 
conversation with a guy a couple of months ago about this. He 
told me about the way that he trades. He trades on his own 
account, he happens to share space with a bunch of other people 
who do the same thing. They share algorithms that they wrote in 
Excel, and they will use those algorithms throughout the day. 
They trade through an FCM whose infrastructure is hosted at one 
of TT's facilities. The way that DEA is currently defined, that 
individual would have to register as a floor trader, arguably, 
because he is accessing the market through a system that isn't 
physically hosted by the registered agent or the registered 
FCM. And so I think that is problematic.
    Mr. Crawford. Okay. Mr. Gorelick, back to you. If an entity 
is required to be registered as a floor trader, what CFTC 
regulatory requirements would be imposed on them beyond those 
specified in Reg AT?
    Mr. Gorelick. Actually, I am not sure about that. I would 
be happy to look that up. I focus more on what are the 
requirements within Reg AT.
    Mr. Crawford. Yes.
    Mr. Gorelick. I am not familiar with the floor trader 
requirements in any great detail.
    Mr. Crawford. Okay. Mr. Wood, do you have anything that you 
could add?
    Mr. Wood. With regards to the responsibilities of being a 
floor trader, I apologize, not really. The one thing I would 
say on DEA, what we have questioned, again, because it brings 
into scope a lot more participants than was originally intended 
in Reg AT, we have generally questioned its need because it 
becomes almost like an arbitrary trigger again in terms of 
creating a requirement around someone who has a particular type 
of market access, which then they don't have to do if they then 
use a different type of market access by going through pipes 
provided by an FCM. And we think that it comes back to we 
should be looking more at what is the type of activity, as 
opposed to the mode of access to the market.
    Mr. Crawford. Okay. Mr. Ryan, did you have anything you 
want to add on that?
    Mr. Ryan. Well, I guess just to add to what I was saying 
before, the significance of having that individual that I was 
talking about trade through an FCM is that the FCM controls his 
risk already, and that is the key, it seems to me, not 
necessarily where the physical trade is entered or how it is 
entered.
    Mr. Crawford. Okay. Mr. Vrabel, in the last 13 seconds, any 
comments?
    Mr. Vrabel. No, I can agree with what was said. The key 
issue for us is where the risk controls are being administered, 
either by the clearing member firm that has the ability to 
administer those controls, or if it is by the trading firm 
themselves that have created their own tools, and that is 
really where the line comes when looking at whether those 
controls are adequate and who is responsible for them.
    Mr. Crawford. Thank you. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Walz, 5 minutes. No questions?
    Austin Scott, 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    Mr. Gorelick and Mr. Wood, when Chairman Massad appeared 
before the Committee in February, I questioned him regarding 
the source code provisions in Reg AT, and his testimony was 
that the CFTC would only access source code using proper 
procedures. And why isn't a subpoena the proper procedure to 
get highly sensitive information like source code?
    Mr. Wood. We would all argue that the subpoena is the 
appropriate legal procedure for accessing intellectual 
property. As I said previously, it is an extreme situation 
though. There are other methods to find out more information if 
there is a particular inquiry without going to the subpoena 
level.
    Mr. Gorelick. I was reassured by Chairman Massad's comments 
in that regard that they would be open to looking at what the 
appropriate safeguards are, and I would suggest that the 
subpoena process, as it has currently been in place, is 
probably the best place to start.
    Mr. Austin Scott of Georgia. Well, let me ask you this 
then, with the breaches and other things that we have had, and 
the government pledge to look after your source codes, how much 
comfort does that give you that the government would be in 
possession of it and looking after it?
    Mr. Gorelick. The assurances, at the end of the day, would 
need to go beyond just merely we are going to take care of you, 
don't worry about it. I think that there are lots of different 
types of safeguards that can go in place around sensitive 
information, about who is able to look at the information and 
in what form they are able to access the information, what are 
the various levels of access printed copies versus connected to 
the Internet, et cetera, et cetera, that would need to be 
thought through and put in place to give comfort in that 
regard.
    Mr. Austin Scott of Georgia. Mr. Ryan, could you speak to 
the definition of source code and whether or not there is a 
universal definition, and specifically to Reg AT, if they have 
been clear about what the definition of source code is?
    Mr. Ryan. Sure. I mean as I indicated before, I don't think 
that the general definition of source code is too 
controversial. Very generally, as I said, it is a high-level 
software language that is intended to be intelligible to 
humans.
    Mr. Austin Scott of Georgia. Is it all written in the same 
computer language?
    Mr. Ryan. No. No. There are many, many different languages. 
In fact, TT uses in excess of 30 different languages.
    Mr. Austin Scott of Georgia. Is it easy to interpret? I 
would assume that it is not if you use that many different 
languages.
    Mr. Ryan. Absolutely. No, it is not. It is not. It is not 
even easy to interpret when you are talking to different 
software engineers who are working with the same sort of 
language. One software engineer's source code might not be very 
obvious to another software engineer's source code. In fact, 
that is typical.
    Mr. Austin Scott of Georgia. So then how would an agency 
maintain a staff that could actually use the information and 
derive anything that they may need out of the information?
    Mr. Ryan. I appreciate your question, and I think that 
would be very difficult for them to do. And again, I think that 
the participants in the marketplace are willing and able to 
give as much useful information as we can, but there is 
definitely a question as to whether this sort of information is 
useful.
    Mr. Austin Scott of Georgia. Well, I don't have any further 
questions, Mr. Chairman, most of the ones that I had have 
already been asked, but thank you for having this hearing. And, 
gentlemen, thank you for being here.
    And with that, I yield the remainder of my time.
    The Chairman. The gentleman yields back. I also thank him 
for his chairmanship of the Subcommittee that has direct 
oversight on this.
    Mr. Thompson, 5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman. Thanks to the 
members of the panel.
    Mr. Ryan, my first question is for you. Can you share some 
additional detail about how commercial market participants 
utilize the tools that your platform provides?
    Mr. Ryan. Sure. We have many different trading tools that 
people can use, specifically with respect to algorithmic 
trading, to input their algorithms. For example, we have a tool 
called ADL, or Algo Design Lab, which enables an individual to 
basically drag and drop icons onto a user interface to create 
kind of a logic tree that ultimately creates an algorithmic 
trading strategy.
    We also have other tools that enable people to input 
algorithms or equations into the different cells on a user 
interface that, again, would enable them to use the algorithmic 
trading. It also integrates with things like Excel. Lots of our 
traders use Excel and integrate it into our software, Microsoft 
Excel. And otherwise through APIs, they can integrate their 
algorithmic trading strategies through our software.
    Mr. Thompson. Sounds like many of your strategies and tools 
are pretty consumer-friendly in terms of, I don't want to say 
algorithms for dummies, but maybe a kind of thing I could 
actually handle. I am not sure when you are talking about 
dropping icons.
    Mr. Ryan. ADL is one that we are particularly proud of, and 
the idea of it is that it enables regular traders, so to say, 
to be able to input algorithms without having to hire a 
software engineer to do it for them.
    Mr. Thompson. Yes. Market access. What would be the 
ramifications for your clients if they were subject to the Reg 
AT simply because they used your platform to execute their 
trades?
    Mr. Ryan. Well, I mean we have touched on some of the 
bigger concerns such as the source code repository. An example 
is that end-user that I was talking about before. When I was 
talking to him, he had told me that when he trades throughout 
the day, he will have a list of maybe ten different algorithms 
that he and his trading partners might use. They will be 
tweaking them throughout the day too, depending on market 
conditions.
    As written, that individual trader would have to keep track 
of all of those changes, all of the source code related to 
those changes, indicate how and when that was done, and have 
that available for review by the CFTC, again, without subpoena 
power, which is a tough task.
    Mr. Thompson. Well, thank you.
    For the rest of the panel, why would imposing risk controls 
on market participants, instead of registration requirements, 
be a better means by which to regulate automated trading?
    Mr. Vrabel. I will address it in part with some of my 
earlier comments that some of the disruptive activity we have 
seen in our markets have come from fairly simply automated 
strategies that would not necessarily be caught in how Reg AT 
is currently written. By participants that do not have direct 
electronic access, who are nevertheless operating a simple 
automated strategy in the markets. And they pose similar risks 
to the marketplace like some of the more sophisticated firms.
    Obviously, I think that everyone up here shares the same 
perspective that we need to protect the entire market, not just 
a particular subset of traders that would be burdened with 
these requirements.
    Mr. Wood. And if I may add to that. So when FCMs provide 
access to their customers, to the marketplace, we have 
discussions with the clients about what sort of systems they 
are using, what types of controls they have in place. And if 
they choose to bypass the systems that we provide for market 
access, where we have risk controls that we administer, and 
they choose to use either a third-party software which may or 
may not give the FCM the ability to set those risk controls, 
then if they are going direct to market without something the 
FCM can provide, then they have a responsibility to ensure that 
there are appropriate risk controls in place.
    The industry has generally taken that approach that there 
is this responsibility. The Commission feels that they have to 
go one step further with regards to then saying, ``Okay, if you 
are not going through an existing registrant, you should become 
registered, and in this case it would be as a floor trader, 
because of the type of access you have.''
    We have generally argued within the industry that is 
probably going a little bit too far, though we have conceded 
that if someone chooses not to go through the risk controls 
provided by an existing registrant, such as an FCM, then, okay, 
they will become registered in themselves.
    Mr. Thompson. Yes. Thank you, gentleman.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Allen, 5 minutes. Rick.
    Mr. Allen. Yes, sir. Thank you, Mr. Chairman. And we have 
covered a lot of ground here this morning. Thank you so much 
for coming and at least educating me on this process.
    I just had a couple of general questions about the 
industry. Mr. Gorelick, you are in the business, and I just 
have a general question, what keeps you up at night?
    Mr. Gorelick. Well, there is a lot, obviously, we are in 
business, the competitive concerns are something that we spend 
a lot of time thinking about, making sure that we are keeping 
up with changes in the market, and competitive changes and 
competitive dynamics, and that is where I spend a lot of my 
time thinking.
    In terms of sort of risks to the market, I really worry 
about new regulation coming in, in ways that distorts how 
things are working pretty well right now.
    Mr. Allen. Yes.
    Mr. Gorelick. Things can always get better, and we should 
always be working to improve. I don't want to defend the status 
quo, however, some of the rules that are being proposed here 
and in other contexts definitely run the risk of unintended 
consequences that could make it a lot harder to manage risk, 
and that could take a lot of time and energy away from sort of 
our core functions of risk management, and keeping up with 
competitive developments in the market.
    Mr. Allen. Yes. I am on another committee, Education and 
the Workforce. We have had a number of hearings on the 
fiduciary rule. Does that in any way affect your business, or 
are you familiar with that?
    Mr. Gorelick. I am not.
    Mr. Allen. You are not, okay.
    As far as your customer base, and again, this is just to 
satisfy my curiosity, your customer base, are they pretty much 
investors that know this industry, know this business, or are 
they folks that just kind of come and go in the market, and 
what incentives do people have to invest in these trades?
    Mr. Gorelick. Sure. So we are a proprietary trading firm. 
So we manage----
    Mr. Allen. Okay.
    Mr. Gorelick. We trade our own capital. We put our own 
money at risk in all the trades that we conduct. So we don't 
have direct customers in the traditional sense.
    Mr. Allen. I see. Okay. So from your standpoint then, as 
far as these regulations, if you are dealing with your own 
money what then would be the issues as far as the government is 
concerned?
    Mr. Gorelick. Well, as proprietary traders, we clearly have 
incentives to make sure that we are managing our own risk. It 
is our own capital at risk, and so we are largely aligned with 
the goals of risk management throughout the market.
    Mr. Allen. I see. Okay.
    Mr. Gorelick. So I would think that that is the case.
    The interest of the government here is sort of protecting 
market integrity, and we very much share that concern. We want 
to make sure that we are participating in markets that are 
transparent, that are well-regulated, and that the public 
rightfully has confidence in.
    Mr. Allen. And that is one of the things that I have seen 
as far as my short time here, is that we have this tremendous 
disconnect between the regulatory part of this body versus 
actually the business community out there. And it sound like 
you all have put in a lot of your own regulatory environment to 
protect the industry, and I commend you on that.
    As far as what we can do as a Committee, and I will leave 
this, I have about a minute and a half left, what is the 
biggest thing we can do here as this body to protect the 
integrity of this industry, and certainly as far as our role in 
agriculture?
    Mr. Gorelick. The continued oversight responsibility of the 
Commission is very helpful. Holding hearings like this where 
you surface issues, and help to urge the Commission to continue 
to take into account the views of industry, and to identify 
where there are opportunities to improve the current regulatory 
framework.
    Mr. Allen. Mr. Wood, do you have any comment?
    Mr. Wood. I would absolutely echo what Mr. Gorelick said 
there. From the FCM perspective, obviously, we have put a lot 
of investment into ensuring that we have the controls in place 
to obviously aid us in how we do our business in providing 
access to market participants, who are our customers. We would 
like to see a fair and evenhanded continued regulation of the 
U.S. futures markets that is not too prescriptive or onerous or 
burdensome on the market participants.
    Mr. Allen. Yes. And I assume you will holler at us if it 
gets a little too restrictive? Good.
    Well, I am out of time. I will yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Thanks, gentlemen.
    I missed your initial testimony, but I have a couple of 
questions, I am not as sophisticated as far as this market 
stuff as some of these people here. What are some of the 
disruptions to the marketplace that, I think it was Mr. Vrabel 
described, like 20 or 30 incidents of market disruptions that 
have resulted from, I don't know, programmatic trading 
policies, or something? Can you explain that to me a little bit 
more, what happened, and like pick a couple of examples, and 
then how did you fix it or what happened there, tell me about 
that?
    Mr. Vrabel. Sure. And just for clarity, the 15 to 30, or 15 
to 20 disruptions in the market based on my understanding of 
that study, it was not disruptions that were the result of 
algorithmic trading malfunctions, which is important to 
recognize.
    What we do though on a regular basis is monitor our markets 
for aberrations. And it could be as simple as we see a firm 
sending in a significant number of order messages over a given 
period of time, which may be indicative that their systems are 
malfunctioning. So this could have no impact on the marketplace 
at all, but we see conduct from that firm that seems like an 
aberration. And our ordinary course of practice is to reach out 
to that firm to try to identify the cause of that. And by and 
large, this causes the firm to say, ``Yes, we realize the 
issue, we have implemented these new controls to prevent this 
from happening in the future.'' That is how we monitor the 
markets and mitigate the potential of an algorithmic trading 
disruption. And that is really what is important that, in order 
to protect the market, you have to spend a lot of time working 
with the participants, rather than imposing very----
    Mr. Benishek. Does this happen very fast though? I mean it 
seems to me that these kind of algorithmic trading--that stuff 
happens really fast. I mean is there an opportunity to get in 
there and question them how this is working?
    Mr. Vrabel. It is. CME Group has a number of controls that 
are in place. One of them is a messaging throttle control. And 
what it does is, it imposes a threshold where if a firm 
breaches that threshold over a given period of time, we start 
to reject new orders that that firm is submitting. And if it 
gets egregious enough, we actually shut down their access to 
the exchange. So we have controls that can act much faster than 
I can look at my computer screen and see what is happening.
    Mr. Benishek. Right. Right. So how often does that happen?
    Mr. Vrabel. I don't have numbers at-hand. I would say that 
it is not infrequent that firms have activity that causes us to 
prevent those orders. I would also say it is not always a 
malfunction.
    Mr. Benishek. Right.
    Mr. Vrabel. Sometimes it could be intended activity based 
on the market moving.
    Mr. Benishek. Let me kind of go a different direction a 
little bit. Apparently, this Reg AT, if the participant 
violates an algorithmic trading policy, that is considered 
grounds for the CFTC to enforce, which seems kind of weird to 
me that your own rules, if you violate them. So what is to 
prevent you from writing very lax rules and then not reporting 
to the CFTC? I am just kind of curious about that.
    Mr. Gorelick. That is one of the concerns that we have 
raised with the CFTC, that it sort of provides a disincentive 
for people to have particularly restrictive internal policies 
and procedures, and that the incentive that would come from 
that would be to have the bare minimum that are required by law 
to make sure that you are not inadvertently bringing on 
additional liability to your firm. So that is one of the 
definitional issues that we have suggested need to be fixed.
    Mr. Benishek. All right. Thank you.
    Thanks, Mr. Chairman. I will yield back.
    The Chairman. The gentleman yields back.
    Mr. LaMalfa, 5 minutes.
    Mr. LaMalfa. Thank you again, Mr. Chairman. Please forgive 
me for having been in a different committee, if anything I ask 
may be a little redundant, having missed some of your previous 
testimony.
    But, coming back to the requirement that firms make their 
source codes available without a subpoena at CFTC is very 
concerning to everybody here today. It would seem to me that 
this change is really an important issue of privacy and 
protection of intellectual property. So do any of you on the 
panel have any additional thoughts about how this agency could 
modify the code repository requirements in order to maintain 
that intellectual property? Anything you want to sum up with 
here?
    Mr. Gorelick. So one of the things that I suggested in my 
written testimony is that there is an opportunity for a sort of 
principles-based retention policy for source code that, working 
with the industry, could be defined in a way that is consistent 
with current practices, to ensure that when the CFTC needs 
access and gets a subpoena, and follows proper due process, 
that they can be comfortable that the source code still exists 
within the firm in a reasonable way.
    Mr. LaMalfa. With a subpoena.
    Mr. Gorelick. With a subpoena, absolutely.
    Mr. LaMalfa. Which isn't the pattern and doesn't seem to be 
the policy coming forward?
    Mr. Gorelick. Correct. So this is a change that we are 
suggesting, an alternative that we are suggesting would be that 
a thoughtful principles-based retention policy should address 
the concern that the source code just doesn't exist, but in 
order to access that, the CFTC would have to follow existing 
practices of using a subpoena and following the due process, 
and putting in place appropriate safeguards.
    Mr. LaMalfa. Gentlemen, do you wish to address that? Mr. 
Vrabel? Okay. All right, thank you.
    The cost-benefit analysis, do you think there are really 
any benefits with the applications as to the end-users, the 
commercial end-users? Are they going to see anything they can 
put their finger on as a benefit? Gentlemen? Anybody? Don't 
want to touch that one?
    Mr. Gorelick. Yes, I don't think it will be very 
measurable.
    Mr. LaMalfa. Not very measurable, okay. Okay.
    There is a questionable interpretation of a long-time 
definition of floor trader that is my understanding. Do you 
think it takes into account the costs of floor registration 
with this new definition, and ongoing cost of compliance?
    Mr. Gorelick. I would say in general, if the rule were to 
be approved in its current form, or close to it, it would 
impose significant costs on both the industry participants and 
on the Commission in trying to enforce it and keep up with it, 
and those need to be factored into account. Ultimately, those 
costs are not just borne by the professionals in the market, 
they do get passed onto the end-users in the form of----
    Mr. LaMalfa. Certainly. Everything does.
    Mr. Gorelick.--higher transaction costs, less liquidity. I 
think that is something that we do need to be concerned about.
    Mr. LaMalfa. So you don't think these costs are being taken 
into account by CFTC? This is being imposed. They are not 
really looking at that.
    Mr. Gorelick. It did not seem to me from the cost-benefit 
analysis that they were looking at the broader impacts, that 
they were really looking at sort of more specific narrow cost 
concerns.
    Mr. Wood. I would echo that, yes, there is a wider concern 
that the cost-benefit analysis in the proposed rulemaking 
didn't take into account what the potential impact on the 
marketplace would be from the burden of compliance with Reg AT.
    Mr. LaMalfa. It is kind of important to have that impact 
taken into account, isn't it? Yes, okay.
    Thank you. I appreciate the panelists here today. Thank 
you, Mr. Chairman, for your graciousness.
    The Chairman. The gentleman yields back.
    Mr. Davis, 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. I appreciate all the 
panelists.
    Something like this seems that in this case we have market 
participants, and if you were given an opportunity to make 
comments, it seems like your comments weren't heard before the 
rule was implemented, otherwise we wouldn't be having this 
hearing today. So it is interesting, sitting on this side, to 
see that. And that is a concern to us.
    And I do want to start a question with Mr. Vrabel. And I 
want to know what will the CME do with all of the data that AT 
persons and FCMs are required to report under Reg AT?
    Mr. Vrabel. Under the requirements of Reg AT as it is 
currently drafted, not much. And here is the reason why. For 
example, the compliance reports that every AT person in a 
clearing firm would have to submit to the exchanges on an 
annual basis, the requirements in the draft would only require 
us to review those every 4 years. So we impose this burden on 
every firm to submit annual reports that the exchanges aren't 
obligated to review. So it leaves huge gaps where participants 
are submitting these reports, thinking that the exchanges are 
endorsing them because they have submitted them, when, in fact, 
they may have risk controls that are inadequate.
    Mr. Davis. Well, will this information help you reduce the 
risk of an algorithmic trading disruption?
    Mr. Vrabel. From our perspective, no. As has been discussed 
earlier, the algorithmic trading disruptions and the 
malfunctions that are caused from algorithmic trading, in order 
to ascertain the root cause of those requires highly 
complicated analysis; the type of analysis that won't be gained 
from routine annual compliance reports that are submitted to 
the exchanges.
    Mr. Davis. And I apologize if you may have addressed this 
in your opening testimony, but were these concerns raised 
during the comment period?
    Mr. Vrabel. They were.
    Mr. Davis. And the result?
    Mr. Vrabel. There was no result.
    Mr. Davis. Yet.
    Mr. Vrabel. CME asked the Commission to extend the initial 
deadline so that we and others could come forward with more 
robust proposals, and that request was declined.
    Mr. Davis. It was declined?
    Mr. Vrabel. It was declined. We are thankful that the 
Commission reopened the comment period. Unfortunately, it was 
on a very small subset of the total proposed rule.
    Mr. Davis. Well, I would hope that they would take comments 
into consideration more seriously that we are hearing from many 
of you as the market users.
    Mr. Gorelick, or actually, the whole panel if you would 
like to answer this, do you believe that Reg AT's cost-benefit 
analysis fully appreciates the ramification of Reg AT on market 
participants in terms of initial and ongoing cost of the 
compliance? Whoever wants to start.
    Mr. Wood. Generally as a panel, we feel that the cost-
benefit analysis focused on certain aspects, but not on wider 
aspects. In terms of compliance with what is proposed in the 
full scope of Regulation AT, it has a very large burden on 
pretty much all market participants, from those who would be 
classified as a floor trader, those who are already registered 
with the CFTC, perhaps as a commodity trading advisor or 
commodity pool operator, who would find themselves in the 
category of an AT person. It imposes a burden on the FCMs in 
terms of what we have to do providing access to an AT person, 
and the reporting responsibilities, and it poses a burden on 
the DCMs, in terms of what they have to do in providing 
additional controls, and the reports that have to be filed with 
everyone. That cost of compliance, unfortunately, will get 
passed on to the wider marketplace, so every type of market 
participant, whether they are commercial end-users, pension 
funds, asset managers, et cetera, in the that sense our main 
concern about Regulation AT is that this has a potentially 
large impact on how liquidity is provided in the U.S. futures 
markets that will ultimately be to the detriment of the end-
user.
    Mr. Davis. All right, thank you.
    Mr. Gorelick, I don't have much time left so I want to ask 
you a specific question on this. Do you believe that the cost-
benefit analysis fully appreciates the potential costs of an 
inadvertent release of your intellectual property?
    Mr. Gorelick. No, that was not an area that was explored in 
the cost-benefit process, to my recollection.
    Mr. Davis. Okay. And any other comment you would like to 
make on this follow up.
    Mr. Gorelick. Sure. I would say one thing that often gets 
lost in these cost-benefit analyses is the competitive impacts 
of this regulation. When you have burdensome regulations like 
this, the result is the biggest firms can keep up with it, they 
can hire a few more compliance people, they can deal with the 
reporting requirements, they can handle it, but it is the 
smallest firms that sort of drop out of the market because they 
can't compete. And that has a negative impact in the 
competitiveness of the market in the short, medium, and long-
terms.
    Mr. Davis. Thank you very much.
    My time has expired.
    The Chairman. The gentleman's time has expired.
    Mr. Neugebauer, 5 minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Gorelick, in your testimony, you stated that foreign 
governments such as China are seeking to impose similar source 
code requirements on U.S. firms. Could you describe some of 
those efforts?
    Mr. Gorelick. Sure. I would actually refer the Committee to 
a comment letter that was put in by a variety of technology 
trade associations and industry associations that deals 
extensively with the source code issue. They raise a number of 
actions in which the Chinese Government sought to impose a 
source code requirement on U.S. companies who were selling 
technology into China in certain sectors, and ultimately, they 
were persuaded that this was unprecedented, not usual in the 
marketplace, and backed down from that requirement. The concern 
would be that this type of precedent that we would set would 
give excuses across the board in lots of different industries 
to impose similar requirements, which would be very detrimental 
to American IP protection globally.
    Mr. Neugebauer. Yes, with a country we already have a 
problem in that area, quite honestly.
    Mr. Gorelick, Mr. Vrabel, or Mr. Wood, what risk controls 
would Reg AT impose on market participants that are not 
currently being implemented? Are there new risk controls that 
will be required in implementing this?
    Mr. Wood. With the way Regulation AT is currently proposed, 
it comes across as a very prescriptive list of risk controls 
that an AT person and an FCM and a DCM should have in place. 
And several of those controls are already in use on a wide 
basis, but several of those controls are not. And as a more 
general concern, it is too prescriptive in how those controls 
should be applied in various places. And the view of the 
industry is generally the controls that are used should be 
appropriate to the type of activity, and to the market 
participant in terms of how they manage their risk, how the FCM 
manages the risk of providing access to the customers, and how 
the DCM manages the risk to how it protects the marketplace, as 
opposed to being as prescriptive in the way Reg AT is currently 
proposed.
    Mr. Neugebauer. Yesterday, I chaired a committee a hearing 
on Fintech, and Fintech is a big world. And one of the things 
that keeps coming up is that people are coming up with 
innovative ways to make money and new business models, is that 
the regulatory community in many cases don't understand the 
technology, and in many cases maybe don't always understand the 
particular business model being imposed there. And so my 
concern is, and I wanted to hear your thoughts, my concern is, 
we see this innovation in the marketplace, and hopefully it 
makes markets more open, more efficient, and brings more 
liquidity to those markets. Do you sense that the regulatory 
community is kind of behind the curve and trying to play 
catchup, and trying to then fold some of this new technology 
and these methods into old regulatory framework?
    Mr. Gorelick. I think that is a challenge in any regulatory 
environment, to keep up with technology, and I think that is 
something that we are seeing right here. And because there are 
new things going on in the market with new technologies that 
are constantly changing, we see the CFTC in one action try and 
catch up with every possible outcome of some of the changes 
that have occurred in the market in one rulemaking, and that is 
complicating the process a little bit. There is a consensus 
across the industry that the place to start is with risk 
controls, with pre-trade risk controls, and that there is an 
opportunity to really catch up a lot by focusing there, and 
then we can move elsewhere.
    I would say another area where the regulators can sort of 
improve their capabilities is their data analytics ability. 
When there are lots of people out there who look at market 
events and say, ``Wow, this looks strange,'' and they come up 
with their theories about what happened. The regulators are the 
expert agency who is well-placed to actually look at what 
occurred, and tell the public that this is what happened, and 
be reassuring where there is a need to be reassuring, and 
actually go and start enforcement or other compliance actions 
where there is a need to do that. Data analytics is another 
area that would help the Commission catch up very quickly.
    Mr. Wood. If I might just add there. We have seen the U.S. 
futures markets evolve in the space of 15 years from being 100 
percent floor-driven, to screen-driven, to now, as we were 
talking earlier about the high prevalence of some form of 
automated trading. We believe that regulations should be 
principle-based to allow for continued evolution, especially in 
markets that are very technology-driven, and obviously where 
innovation is constantly occurring. And to that point, what is 
proposed in Reg AT is too prescriptive and anchors you in a 
period of time that doesn't necessarily allow for innovation 
and continued evolution.
    Mr. Neugebauer. I thank the Chairman.
    The Chairman. Thank you. The gentleman's time has expired.
    I want to thank our witnesses.
    Let me follow up, Mr. Vrabel, you mentioned that the 
algorithmic trading users would, under your scheme, certify 
something, certify that they have tested. What were you asking 
to be certified, and who would set those standards, and would 
there be an outside, I am a CPA by profession, and that word 
certify is a bit protected, but what would that look like, what 
would that certification look like?
    Mr. Vrabel. Sure. A certification could look like a firm, 
an automated trading firm verifying that they are in compliance 
with a principle-based Reg AT regime. I can tell you that 
today, we require firms to submit those types of certifications 
on their maintenance of Audit Trailer, their 5 year retention 
requirements. And I can tell you with 100 percent certainty 
that if a firm does not believe it is in compliance, it will 
not certify that they complied with our rules. That causes us 
to then go interrogate the data and find out the reason why. 
And we have no reason to believe why that type of model that is 
currently enforced in FINRA, in a much more complicated 
securities world, wouldn't work in our environment.
    The Chairman. All right.
    Well, I want to again thank you. I am hard-pressed to 
envision a circumstance where the CFTC could have on-staff a 
cadre of people who would pick out one of these firms at 
random, and go in and drag through their source code in enough 
detail to find that glitch that had been missed, and looking to 
prevent some disruption in the market. If I had a client who 
was cooking the books, I didn't argue as to whether or not 
their automated general ledger system worked properly or not, I 
regulated what came out of it and go about that direction. So 
this whole issue around source code and those things, to me, 
seems to be wrong-headed, and I don't know that it gets us 
much.
    On an after-the-fact, if someone has actually caused a 
disruption in the market, the violation is not going to be that 
they screwed up the code, the violation is going to be that 
they manipulated or hammered the market. And we don't really 
care how it happened if we can prove what they did. And it is a 
real head-scratcher for me to understand the agency's fixation 
on getting source code, having it in their own control, because 
I don't know what they would do with it. They get a lot of data 
today that I don't think they necessarily do everything that 
they should be doing with it, and this would just add more to 
that as well.
    I did not hear from any of you that you don't want this 
arena regulated, that the conduct should just be free-flowing 
and laissez-faire, not one of you mentioned anything that 
remotely said this does not need to be regulated, but you did 
say that it ought to make sense and ought to be principles-
based, as Mr. Wood just mentioned. And I am hopeful that this 
hearing and I see some representatives from the agency and 
others here, that the CFTC will respond to the comments made 
today, as well as the attention we have placed on this. But, 
the testing that I know Richard does on his team, as a market 
participant, if you had an algorithm you put in place and it 
did something you didn't want it to do, and it didn't disrupt 
the market but it caused you to be on the wrong side of all 
those trades, you have a vested interest, a proprietary 
interest, in not having a system that does something you don't 
want it to do. And that is that first layer, and then all the 
various things we could put in place on top of that that gets 
to the system. And this proposed rule has a lot of fine-tuning 
that needs to be done. I was particularly disappointed to hear 
that the cost-benefit analysis was not maybe as fulsome as it 
should have been. Chairman Massad and I have a running argument 
as to the way the CFTC does their cost-benefit analysis. I 
don't believe CFTC takes into consideration the costs to market 
participants broadly, and I don't think it takes into 
consideration the costs to the agency itself. If I want to 
build a fiefdom then I could build all kinds of regulatory 
schemes, it causes me to have to beef-up my staff, to put in 
place that cadre of 50 or 60 different expert software 
engineers to put on my team so that I can wade into your 
software. Well, that makes no sense if, at the end of the day, 
it doesn't really prevent manipulation of the market.
    The other thing that earlier on was said somehow that this 
regulatory scheme is going to be perfect, and that nobody will 
be able to violate it. Well, if that is the case, then perhaps 
the CFTC has discovered a technique that we could use perhaps 
in the real criminal area, and maybe write rules that nobody 
gets murdered today, and all those kind of good things. There 
is a lot of work to be done in this.
    Again, thank you very much for you very clear testimony. It 
was great having you with us today.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Committee on Agriculture is adjourned. 
Thank you.
    [Whereupon, at 11:54 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   Submitted Statement by Susan Bergles, Assistant General Counsel, 
                        American Gas Association
    The American Gas Association (``AGA'') \1\ appreciates the 
opportunity to submit this statement for the record relating to the 
Commodity Future Trading Commission's (``CFTC'') proposed rule on 
Regulation Automated Trading (``Regulation AT'').\2\ AGA filed comments 
to the CFTC in this proceeding on March 16, 2016.
---------------------------------------------------------------------------
    \1\ The AGA, founded in 1918, represents more than 200 local energy 
companies that deliver clean natural gas throughout the United States. 
There are more than 72 million residential, commercial and industrial 
natural gas customers in the U.S., of which 95 percent--just under 69 
million customers--receive their gas from AGA members. For more 
information, please visit www.aga.org. AGA member companies provide 
natural gas service to consumers and businesses under rates, terms and 
conditions that are regulated at the local level by a state commission 
or other regulatory authority with jurisdiction. They use financial 
tools to hedge the commercial risks arising from the regulatory 
obligation to provide affordable, reliable natural gas service to 
customers--risks that include commodity price volatility. These tools 
may include futures contracts traded on CFTC-regulated exchanges, and 
over-the-counter energy derivatives.
    \2\ Regulation Automated Trading, 80 Fed. Reg. 78824 (Dec. 17, 
2015) (``Proposed Rule'').
---------------------------------------------------------------------------
    The potential impact of proposed Regulation AT on AGA's members is 
not insignificant. Absent an appropriately tailored and modified 
definition of ``Algorithmic Trading,'' AGA believes there would be a 
strong disincentive for AGA members and other commercial end-users to 
use Direct Electronic Access (``DEA'') for futures trading activity on 
or subject to the rules of a Designated Contract Market (``DCM''). 
AGA's comments also expressed concern about the requirement that, for 
the first time, commercial end-users might be deemed ``floor traders'' 
and have to register with the CFTC based solely on the manner in which 
they trade--and the potential for Regulation AT, if applicable, to 
unwind or render inapplicable many of the provisions in other rules put 
in place to limit the burden and costs for commercial end-users, such 
as AGA members.
    As users of the futures markets, AGA members support and appreciate 
the CFTC's efforts to bolster safeguards and risk controls in order to 
protect against the risk of malfunctioning algorithmic trading systems, 
and to increase transparency. However, AGA submits that it is vitally 
important that any new rules promulgated as part of Regulation AT 
preserve, and do not negatively impact, the ability of commercial end-
users to access the futures markets and use futures as part of their 
risk management tools. Specifically, AGA is concerned that proposed 
Regulation AT sweeps too broadly in its reach, and as such, may: (1) 
have the unintended consequence of hindering the ability of commercial 
end-users to efficiently and cost-effectively access the futures 
markets; and (2) create inconsistency and regulatory uncertainty 
regarding issues that commercial end-users and the CFTC just recently 
addressed in other rules, such as margin requirements for uncleared 
swaps (the ``Margin Rules''), and record-keeping requirements.\3\ AGA 
believes that the CFTC need not, and should not, deem end-users to be 
floor traders solely because they utilize DEA for ``Algorithmic 
Trading.''
---------------------------------------------------------------------------
    \3\ See Margin Requirements for Uncleared Swaps for Swap Dealers 
and Major Swap Participants, Final Rule and Interim Final Rule, 81 Fed. 
Reg. 636 (January 6, 2016), and Records of Commodity Interest and 
Related Cash or Forward Transactions, Final Rule, 80 Fed. Reg. 80247 
(December 24, 2015).
---------------------------------------------------------------------------
    Simply put, AGA's concern regards the impact of proposed Regulation 
AT on its commercial end-user members that may transact in futures 
contracts via DEA to a DCM for ``Algorithmic Trading.'' As proposed, 
the definitions, including ``Algorithmic Trading,'' ``DEA,'' and 
``floor trader,'' are so broad and far reaching in scope that they may 
have the unintended consequence of actually discouraging companies 
looking to hedge their commercial risks from trading futures. In 
particular, commercial end-users could--with just one DEA futures 
transaction--fall within the definition of a ``floor trader'' which 
requires registration with the CFTC, and concurrently fall within the 
definition of an ``AT Person'' subject to all the requirements of 
Regulation AT.
    Additionally, AGA is concerned that proposed Regulation AT 
potentially would impact the commercial end-user's status under other 
rules that the CFTC has recently adopted or amended that address 
concerns raised by end-users. Becoming a ``floor trader'' by virtue of 
Regulation AT may inadvertently result in commercial end-users becoming 
``registered members'' for purposes of the CFTC's general record-
keeping rules, specifically Rule 1.35(a). AGA submits that this would 
be an unfortunate step in the wrong direction, given this rule was 
recently amended to provide that commercial end-users as ``Unregistered 
Members'' do not have to retain pre-swap-trade communications or text 
messages or link all relevant data to a particular swap. Additionally, 
AGA is concerned that because ``floor traders'' fall within the defined 
term ``financial end-users'' for purposes of the CFTC's recently-
adopted Margin Rules, commercial end-users that are ``floor traders,'' 
solely because of their automated trading in futures, would be subject 
to margin requirements in their swap trading. Thus, the potential 
impact on commercial end-users of the definitions in proposed 
Regulation AT would not be insignificant.
    Further, the proposed definition of DEA appears so broad as to 
include tools that DCMs are marketing, and make available for use by 
commercial end-users, including AGA members. The definition of DEA 
could be interpreted to include these common order management tools 
even if they include DCM-administered risk controls and, notably, even 
if the market participant is accessing the DCM via a Futures Commission 
Merchant (``FCM'') with additional risk controls. As such, end-users 
may not be able to use these DCM-administered tools going forward--
notwithstanding that the use of these tools may result in decreased 
fees--due to the high cost and burden that would be associated with the 
Regulation AT rules. AGA submits this result is not in line with the 
CFTC's commitment to minimizing the burdens and costs of its 
regulations on commercial end-users.
    AGA believes that subjecting all commercial end-users that use DEA 
to access the futures markets to the comprehensive and substantial 
requirements in proposed Regulation AT--including the requirement to 
register with the CFTC--would run counter to the CFTC's laudable recent 
efforts to fine-tune its regulations to make sure that commercial 
businesses can continue to use the futures markets effectively. AGA 
appreciates that it has been a priority of the CFTC to make sure the 
overall regulatory scheme it puts in place recognizes the needs and 
concerns of commercial end-users, and that the overall framework is 
designed to minimize burdens on commercial end-users who depend on the 
markets to hedge normal business risks.\4\
---------------------------------------------------------------------------
    \4\ Opening Statement, Chairman Timothy G. Massad, Open Meeting on 
Proposed Rule on Margin Requirements for Uncleared Swaps and Final Rule 
on Utility Special Entities (September 17, 2014).
---------------------------------------------------------------------------
    The American Gas Association appreciates the House Agriculture 
Committee's careful review of the CFTC's proposed Regulation AT. The 
impact of this rule on end-users, notably gas utilities, may indeed be 
substantial, burdensome and costly. We look forward to working with the 
Committee, the CFTC and all other impacted parties to see that this 
matter is settled appropriately
            Respectfully Submitted,
            
            
            
            
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Susan Bergles,
Assistant General Counsel,
American Gas Association.

                                  [all]
</pre></body></html>
